<html>
<title> - TESTIMONY OF RODNEY E. SLATER</title>
<body><pre>[Senate Hearing 105-33]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 105-33


 
                     TESTIMONY OF RODNEY E. SLATER

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                       

              NOMINATED TO BE SECRETARY OF TRANSPORTATION

                               __________

                            JANUARY 31, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works





                    U.S. GOVERNMENT PRINTING OFFICE
 40-510 CC                WASHINGTON : 1997
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
          Steven J. Shimberg, Staff Director and Chief Counsel
               J. Thomas Sliter, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     3
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    14
Hutchinson, Hon. Tim, U.S. Senator from the State of Arkansas....     1
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     6
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    12
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................    13
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     7
Smith, Hon. Robert, U.S. Senator from the State of New Hampshire.     8
    Letter from Leon Kenison, New Hampshire Department of 
      Transportation.............................................    10
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     5
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     6

                                WITNESS

Slater, Hon. Rodney E., Secretary-Designate, Department of 
  Transportation.................................................    14
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Baucus...........................................    57
        Senator Chafee...........................................    47
        Senator Inhofe...........................................    52
        Senator Kempthorne.......................................    51
        Senator Lieberman........................................    58
        Senator Sessions.........................................    54

                                 (iii)




                     TESTIMONY OF RODNEY E. SLATER

                              ----------                              


                        FRIDAY, JANUARY 31, 1997

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Smith, Kempthorne, 
Hutchinson, Sessions, Baucus, Moynihan, Lautenberg, Graham, 
Lieberman, and Wyden.
    Senator Chafee. Will the committee please come to order?
    This is an informational hearing to receive testimony from 
Mr. Rodney Slater, who has been nominated by the President to 
be Secretary of the Department of Transportation.
    We're delighted that a Member of this committee, Senator 
Hutchinson, is here to introduce Mr. Slater to the committee 
and I am going to withhold on my opening statement until 
Senator Hutchinson completes his introduction.
    Senator we welcome you here and proceed.

OPENING STATEMENT OF HON. TIM HUTCHINSON, U.S. SENATOR FROM THE 
                       STATE OF ARKANSAS

    Senator Hutchinson. Thank you, Mr. Chairman.
    I'll say this morning again how glad I am to be able to 
serve with you on this committee after serving on the Committee 
on Transportation and Infrastructure in the House.
    I'm extremely pleased to have the opportunity to introduce 
somebody I admire and respect, and somebody who has been a good 
friend over the years. I'm glad I can call him a friend.
    Rodney Slater is the President's nominee for Secretary of 
the Department of Transportation. I'm sure you may know that 
Senator Bumpers, Senator Warner, Congressman Hutchinson, my 
brother, and Congressman Marion Berry, and I introduced Rodney 
on Wednesday before the Senate Commerce Committee, where Rodney 
was presented as the nominee of the President. I am pleased to 
note that the hearing on Wednesday went smoothly and I'm 
confident that today's hearing will strike a similar tone.
    As special as Wednesday was, today is even more of a 
pleasure for me to be able to introduce Rodney to the committee 
on which I am privileged to serve.
    I've known Rodney since the 1980's when I was first elected 
to the Arkansas State Legislature and Rodney was the executive 
assistant for then-Governor Clinton. From the very beginning of 
our relationship, I've had the deepest respect for Rodney on 
both a personal and professional level.
    Professionally, I think there is no question that Rodney is 
qualified to become the Secretary of Transportation. Before 
coming to Washington, Rodney served for 6 years as commissioner 
and later as chairman of the Arkansas State Highway Commission. 
During this time, Rodney, without hesitation, tackled the great 
challenge of improving the infrastructure of the highway system 
in a poor, rural State that has many infrastructural needs.
    The last 4 years, he has served as Administrator of the 
Federal Highway Administration where he's faced the challenge 
of implementing ISTEA. The experience with national and local 
transportation needs, as well as his expertise in the 
intricacies of ISTEA, give me the utmost confidence in Rodney 
Slater.
    I look forward to working with a Secretary Transportation 
with such valuable and worthwhile experience. I'm especially 
glad for his background in surface transportation, though I 
know he will be fair and even-handed in dealing with all modes 
of transportation.
    On a personal note, I cannot overemphasize my esteem for 
Rodney and the courage he's shown in overcoming the 
difficulties associated with growing up in a region the 
country, the delta of Arkansas, that is one of the most 
impoverished areas of the Nation. In overcoming those 
obstacles, he has become, I think, a tremendous role model to 
the young people of America.
    Another one of the great things about Rodney, which I noted 
on Wednesday, is commitment to his family and their commitment 
to him. Nobody could question that commitment after Wednesday 
when so many of his family came out for the Commerce Committee 
hearing.
    A Republican said, ``No way I could vote against Rodney 
Slater after you canonized him.'' Well, I couldn't canonize 
him, but I think he is a great role model.
    Another example of Rodney's love for his family came 
yesterday when, despite all his obligations Rodney found time 
to walk his young daughter, Bridgette, to school.
    This type of commitment to family and profession encourages 
me. I want to reiterate my comments from Wednesday, that I have 
no hesitancy at all in giving my total support for Rodney 
Slater as Secretary of the Department of Transportation. I'm 
glad to introduce him to the committee today.
    Senator Chafee. Thank you very much, Senator Hutchinson. 
That's a very, very favorable endorsement of Mr. Slater.
    We, as you know, on this committee have gotten to know Mr. 
Slater over the past 4 years in his said capacity as 
Administrator of the Federal Highway Administration.
    We'll excuse you, Senator, and welcome you to the dais. 
Again, we want to say how glad we are that you are a Member of 
this committee.
    Now, again, I welcome you, Mr. Slater. I don't believe you 
have your family here today, do you?
    Mr. Slater. They aren't here at present, but I think that 
my wife and daughter may try to arrive later this morning.
    Senator Chafee. Well, if they do show up, if you'd let us 
know, I know the Members of the committee would be very glad to 
welcome the members of your family.
    Mr. Slater. Thank you.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. The purpose of today's hearing is to 
receive testimony from Rodney Slater, the President's nominee 
to be Secretary of the Department of Transportation. This 
committee does not have responsibility for reporting out this 
nomination. However, we have jurisdiction over many key 
transportation issues, including the reauthorization of the 
Intermodal Surface Transportation Efficiency Act, which is 
among the priorities of the committee this year.
    Mr. Slater has a distinguished record of service, as 
Senator Hutchison outlined. As Federal Highway Administrator, 
you've worked tirelessly to meet the Nation's complex and 
almost endless transportation needs. I am confident that you 
will continue that excellent work as Secretary of 
Transportation.
    Four years ago when you appeared before this committee as 
the President's nominee for the Federal Highway Administration, 
Congress has just passed ISTEA the previous year or so. I guess 
it was just a year earlier in 1991.
    During that hearing, we focused on the critical role the 
Federal Highway Administration would play in carrying out the 
new law. To that end, in your testimony, you pledged that the 
Federal Highway Administration would carry out five key themes 
identified by then Secretary Pena.
    They were, No. 1, strengthening the role of transportation 
in supporting the economy; No. 2, supporting transportation 
safety; No. 3, building linkages between transportation and the 
environment and environmental policy; No. 4, advancing American 
technology and expertise; and No. 5, fostering intermodalism.
    These were and continue to be laudable goals that must be 
preserved as we move forward in enacting the second ISTEA. It 
is a crucial time for the Nation's transportation system. 
Regrettably, not everyone has such a global view as you do of 
transportation's role. Some Members want to go backwards, in my 
judgment, and return the program to solely a highway program. 
Others simply want to give the program back to the States.
    I think it is important that you protect, not only the key 
Federal role in ISTEA, but also the broad perspective needed to 
guide the Nation's transportation system into the next century. 
What was once simply a highway program is now a program not 
only for building roads and bridges, but also for enhancing our 
mobility, our safety and the environment in which we live, 
work, and play.
    So, Mr. Slater, we welcome you here and Senator Baucus, do 
you have a statement?

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman.
    Mr. Slater, I join the chairman of our committee and all of 
us here in welcoming you. We look forward to working with you 
in a very constructive, industrious, and fruitful tenure as 
Secretary of Transportation. You will be working with all the 
committees in the Congress and certainly with this one, on 
transportation issues.
    Mr. Chairman, I am very pleased that we are holding this 
informational hearing. The more hearings we have in which we 
speak with the Secretary and his staff, the more likely we will 
reach an accommodation that is in the country's best interests. 
We should have a good number of meetings, whether they're 
formal or informal.
    Mr. Chairman, as you may know, Rodney Slater is only the 
second Federal Highway Administrator to be nominated as 
Secretary of Transportation. The first was John Volpe from 
Massachusetts. We all know Mr. Slater's individual 
accomplishments as Highway Administrator. He is most deserving 
to the Secretary of Transportation.
    Mr. Chairman and Mr. Secretary-to-be, one of the priorities 
of this committee and the Congress will be the reauthorization 
of the Intermodal Surface Transportation Efficiency Act, 
otherwise known as ISTEA, which expires on September 30, 1997.
    There will be plenty of time to debate the merits of that 
legislation, but at this point, Mr. Chairman, I'd like to make 
a few brief comments.
    First, we all know the funding formulas will be 
contentious, will be difficult. I recognize that ISTEA's 
formulas must be debated and where appropriate, they must be 
changed, but I ask my colleagues to keep in mind that we are 
one Nation.
    We are not 50 separate nations, we the United States of 
America. We all come from States with diverse transportation 
needs--that is true--but our goal should be to craft a 
reauthorization bill that is worthy of this country as we move 
into the next century.
    In addition to formulas, there are several important policy 
decisions that must be taken. First and foremost will be the 
overall level of funding. With the help of my colleague, 
Senator Warner from Virginia, we've been able to gather a 
letter with 57 signatures to the chairman of the Budget 
Committee, Senator Dominici. Mr. Secretary, the letter urges 
him to make room in the budget resolution for an increase in 
transportation spending. Let's remember, these funds come 
directly from the users of the transportation system and should 
be available to meet their needs.
    We must also discuss the impact of transportation on the 
environment and the use of Highway Trust Fund dollars for 
Amtrak and other modes of transportation--big issues. 
Furthermore, we will examine the relationship between the 
States and local officials when it comes to transportation 
planning, and the balance between urban and rural interests in 
developing and applying new transportation technologies.
    We've a lot of ground to cover. I'm encouraged that Senator 
Warner is already scheduling hearings so that we can begin our 
work.
    All of us want a well-maintained, efficient and safe 
transportation system for our constituents and for our country. 
We will find that balance, but only if we work together and 
stay focused on the big picture.
    ISTEA was a landmark bill, due in large part to the vision 
of the Senator from New York, Senator Moynihan. Now we have the 
opportunity to extend that vision into the next century.
    I look forward to working with you, Mr. Chairman, and with 
you, Mr. Secretary-designate, with Senator Warner and my 
colleagues to achieve that goal.
    Senator Chafee. Thank you, Senator, and you are quite right 
in giving great credit to the senior Senator from New York, 
Senator Moynihan. He was the lead player on that in 1991. I was 
pleased to be able to give him a hand, but he was the one that 
had the overall vision.
    Senator Warner.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    I would like to say that I had the privilege of introducing 
the nominee before the Commerce Committee, one of the events in 
the life of a Senator one does not forget. Thank you for that.
    I'd note the presence of his wife and family who have 
arrived, I believe.
    Senator Chafee. Yes, Mr. Slater. Why don't you introduce 
your family to us?
    Mr. Slater. Mr. Chairman, it's my pleasure and honor to 
introduce my wonderful wife, Cassandra Wilkins, and our 
beautiful daughter, Bridgette Josette Wilkins Slater.
    Senator Chafee. If Bridgette can stick this out, she's a 
real champ.
    [Laughter.]
    Senator Baucus. That's a wonderful name. What's her full 
name again?
    Mr. Slater. Bridgette Josette Wilkins Slater. She's named 
after her grandmother and great grandmother.
    Senator Chafee. That's nice. Well, we welcome you both 
here, Mrs. Slater, and your lovely daughter.
    Senator Warner. I listened very carefully as the 
distinguished Member from the State of Montana set forth the 
issues.
    I would like to say, on a personal basis, how pleased I am 
with our two new Members, Senators Hutchison and Sessions, and 
I look forward to working with them.
    Senator Chafee. Then we've got another Member who isn't 
here, Senator Allard.
    Senator Warner. Yes.
    Senator Chafee. Well, with that laudable example of 
brevity, next in order of appearance is Senator Hutchinson, who 
has already had some words but you're entitled to some more, 
but don't feel compelled.
    [Laughter.]
    Senator Hutchinson. With that admonition, I'll resist the 
temptation to speak and I hope I will have an opportunity to 
ask some questions.
    Senator Chafee. You certainly will, that's the purpose of 
it.
    Senator Kempthorne.

 OPENING STATEMENT OF HON. DIRK KEMPTHORNE, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Mr. Chairman, thank you very much. I, 
too, will make my opening statement as part of the record.
    I would like to say though that I greet Rodney Slater's 
nomination to the Secretary of Transportation with great 
enthusiasm. I'm a great admirer of yours, Mr. Slater. I've 
watched you in 4 years. You have brought great honor and 
distinction to the performance; you were a practitioner of 
practical government in the State of Arkansas; you've now 
brought it to the Federal level, to which I think all of the 
States are grateful to you. I think you'll make an outstanding 
Secretary of Transportation.
    I also would like to acknowledge Cassandra. The team that 
you have, because when we had some terrible flooding in Idaho 
on a Saturday that I needed to reach you, I called you home, 
spoke to Cassandra, who promptly got the message to you, so 
that's the support that you get from your family.
    Bridgette Josette, the beautiful young lady there, it's 
good that your family is here because with all the duties you 
have as the Secretary of Transportation, and all that we 
require of you, we also want you to continue your role as 
father and husband. That's critical.
    Mr. Slater. Thank you.
    Senator Kempthorne. Thank you.
    [The prepared statement of Senator Kempthorne follows:]
Statement of Hon. Dirk Kempthorne, U.S. Senator From the State of Idaho
    Thank you, Mr. Chairman.
    Good morning, Mr. Slater, and welcome.
    I have very much enjoyed our relationship the past four years in 
your capacity as Administrator of the Federal Highway Administration. 
There have been two particular situations where you and your staff have 
done outstanding work on behalf of the Northwest and Idaho in 
particular. These incidents involved two serious flooding events that 
caused considerable damage to Federal aid highways in my state which 
necessitated a rapid and efficient Federal response in terms of Federal 
Highways personnel and emergency financial assistance. The response of 
your agency and your personal involvement in these disasters was 
terrific. It is very apparent to me that your prior experience in 
highway administration at the state level in Arkansas has served you 
well in Washington, DC. The highway users of this country have 
certainly benefited from your common sense approach to solving problems 
and developing policy. I wish that every appointee that came before the 
Senate for confirmation was as well suited for their position as you 
are. I am confident that the type of professional which has 
distinguished your tenure as Administrator of the Federal Highways 
Administration will continue in your role as Secretary of the 
Department of Transport.

    Senator Chafee. Thank you, Senator.
    Senator Wyden.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Mr. Chairman, I have the drift with respect 
to brevity and let me say this issue is of such importance to 
my State, I just wanted to make a couple of very quick 
comments.
    Most specifically, Mr. Chairman and colleagues, this issue 
of transportation is always framed as a question of economics 
versus environmental protection. The notion is, of course, that 
if you're going to have a booming economy, you've got to take 
the pollution, the traffic, the sprawl, all of the negative 
kind of consequences.
    What we have shown in Oregon is that it doesn't have to be 
that way. We have shown that you can do both, that you can have 
``big league'' quality of life, ``big league'' transportation 
systems, and also preserve your environment.
    The key to all this, and what I'm especially interested in 
exploring with our future Secretary, and I say that with great 
anticipation, is making sure the States have the flexibility to 
use the dollars in the most cost-effective way. Often in 
Washington, DC, we put the States in these kinds of 
straightjackets. The States don't have the flexibility to show 
that they can, in fact, have a significant economic growth and 
protect the natural treasures as well as their communities.
    ISTEA reauthorization will be extraordinarily important 
bill. We all know that we're on the balanced budget path, but 
we've got to figure out a way to make a handful of key 
investments while still staying on that path. Transportation, 
in my view, is one of those key investments.
    Mr. Chairman and colleagues, I very much look forward to 
working on a bipartisan basis with respect to this issue that 
is of critical importance to my State.
    Let me also join Senator Kempthorne in saying I remember 
what Mr. Slater did in terms of responsiveness during the 
horrible floods we had in the West, and I think we'll get that 
same kind of approach when he's confirmed.
    I yield, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Sessions.

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. Mr. Chairman, I'm delighted to be here 
today. Mr. Slater, you have a great reputation among the 
transportation people in Alabama. They feel like you've been 
responsive to them. I know you've been to Alabama probably more 
than 10 times in your capacity and leadership here.
    I enjoyed our meeting yesterday. We can communicate. I 
don't know if it's the accent or maybe it's just the way you're 
direct and honest and answer questions. I think we'll have an 
outstanding relationship and I look forward to supporting and 
working with you.
    Just a couple of concerns for the State. We are one of the 
top three in the country, as being a donor State. We have a 
substantially heavier contribution to the Trust Fund than we 
receive in benefits. We have some serious needs in terms of 
completing our interstate system and some other highway systems 
that we'll be talking to you about.
    We all want to work together for the best policy of this 
Nation, but I think it is important that States like Mr. 
Inhofe's State which is also in that top donor State category. 
So we will be talking about that.
    I also had the opportunity to mention to you our concern 
about keeping the interstates from being seriously compromised 
because of construction during a hurricane and natural 
disasters. We sometimes had 4-hour delays, and people sat with 
the hurricane bearing down on them because construction had 
narrowed the road to one lane. Somehow, we need, at least in 
the hurricane season, to perhaps think of ways to correct this. 
I know the State primarily works on that.
    Also, I would be concerned about I think a comment you made 
about being in a post-interstate era. I think I'd like to learn 
more about that.
    I am delighted to see you today and to have the opportunity 
to talk with you and tell you how much our people in Alabama 
have appreciated working with you.
    Senator Chafee. Thank you very much, Senator.
    Senator Smith.

 OPENING STATEMENT OF HON. ROBERT SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. I will also submit 
my statement for the record.
    Let me say, Mr. Slater, I apologize to you for having to 
change our meeting the other day. I think we are meeting on 
Tuesday. It was something you'd understand. I had a parent-
teacher conference, and it was a positive meeting, but I didn't 
want to miss it.
    I too want to say that I look forward to supporting you at 
the time of the vote and look forward to conversing with you 
here as this hearing goes on.
    I just want to say one thing, Mr. Chairman. You know, it's 
interesting. It doesn't very often happen that someone from 
your State who works in a particular area with a Federal 
official would send in a letter and ask specifically that I 
support that nominee. This is the case here where the State of 
New Hampshire Transportation Department Commissioner, Leon 
Kenison, has written a letter and I just want to quote one 
paragraph and yield.
    In that Kenison letter, he says:

    Mr. Slater has gained the respect and admiration of the 
transportation community. His accessibility and responsiveness 
are uncommon traits in those of national leadership, and it is 
these characteristics that have made it a pleasure to engage 
with the Federal agency that reflects Mr. Slater's leadership.
    I'm certain Mr. Slater has the ability to lead the 
Transportation Department as effectively as he has the Federal 
Highway Administration. It is without reservation that I extend 
my support for Mr. Slater's nomination.

     I know Mr. Kenison very well and he doesn't do those 
things for just anybody, so I think that's a great tribute.
    Mr. Slater. Thank you, Senator.
    Senator Smith. Thank you, Mr. Chairman.
    [The prepared statement of Senator Smith follows:]
  Statement of Hon. Robert Smith, U.S. Senator From the State of New 
                               Hampshire
    Thank you, Mr. Chairman, for holding this hearing today on the 
nomination of Rodney Slater to be the next Secretary of Transportation. 
I first want to welcome Administrator Slater before our committee this 
morning and lend my support for his nomination.
    Mr. Slater is no stranger to this committee; and if confirmed, I'm 
certain we will be calling on him again for his advice and counsel as 
we move forward with ISTEA reauthorization. I have no doubt that Mr. 
Slater is eminently qualified for the position and has earned the 
respect of his colleagues, both at the Federal and State level of 
government. In fact, I would like to paraphrase from a letter I 
received from Mr. Leon Kenison, Commissioner of the New Hampshire 
Department of Transportation, and ask for it to be entered into the 
record. In the letter, Commissioner Kenison writes:

          Mr. Slater has gained the respect and admiration of the 
        transportation community. [His] accessibility and 
        responsiveness are uncommon traits in those of national 
        leadership * * * and it is these characteristics that have made 
        it a pleasure to engage with the federal agency that reflects 
        Mr. Slater's leadership. I'm certain Mr. Slater has the ability 
        to lead the Transportation Department as effectively as he has 
        the Federal Highway Administration. It is without reservation 
        that [I extend my support for Mr. Slater's nomination.]

    These words of support are particularly noteworthy coming from the 
head of a State agency. I believe that Administrator Slater's 
experience at the State level of government has been instrumental in 
his understanding of the cooperative relationship that must exist 
between all levels of government. If there's anything that I would like 
to impress upon you as Transportation Secretary is to not forget that 
our States are the primary implementors of much of our federal highway 
policies and should be given the maximum flexibility in carrying them 
out.
    There are several issues of importance to New Hampshire, such as 
providing adequate funding for small States; the Bridge Rehabilitation 
program; reducing bureaucracy and Federal mandates; and continued 
funding for recreational trails and scenic byways. While there will be 
differences among the various States on the issue of funding, I believe 
the appropriate role for the Administration will be to advise and 
counsel the Congress in as unbiased a manner as possible on what is 
best for the nation as a whole.
    With that, I will conclude by congratulating Mr. Slater on his 
nomination, and I look forward to working with him in the future on the 
various transportation issues before our committee.
    Thank you, Mr. Chairman.
    [GRAPHIC] [TIFF OMITTED] TH033.010
    
    Senator Chafee. Thank you, Senator Smith.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    I will be brief, and ask that my full statement be included 
in the record.
    Rodney Slater and I have gotten to know each other during 
his tenure as FHWA Administrator. It was always a pleasure to 
have an opportunity to discuss problems with him, get the 
responses that were positive; we couldn't always agree, even 
though he knows that New Jersey needs more money than anybody 
else in the whole wide world for transportation, but we always 
did have an amiable but serious discussion. So you come here 
very well equipped, I think, to assume the job.
    I wonder whether your family thinks your last name has been 
changed to designate, Secretary-designate, but I see now, 
hearing Senator Kempthorne and others describe assets not 
typically revealed over telephone conversations, but your 
family, I think, you could probably get unanimous consent right 
and move on and take the job.
    We are facing some serious problems, the renewal of ISTEA--
the author sits here with us now--that's going to be a critical 
issue. Mr. Slater and I have had a chance to discuss not simply 
the task of monitoring the department, but making sure that all 
the parts are working.
    I hope that he will be able to be an advocate for 
appropriate spending for transportation in our budget. The 
share that transportation plays in creating economic 
development is significant. Transportation generates 20 percent 
of our GNP and every billion dollars invested in our 
transportation system yields more than 25,000 construction-
related jobs.
    So we would ask that you be an advocate, that you remind 
those in the White House that investments in transportation 
help keep America competitive, create the jobs, help revitalize 
cities, and that we need desperately that investment.
    I would ask, Mr. Secretary-designate, one other thing. That 
is the focus on safety, which you and I discussed in a private 
meeting before, be enhanced. We have not had a particularly 
good year in 1996--aviation safety, increases in drunk driving, 
highway accidents, some of them of enormous proportion, and we 
have to continue to provide the resources, but provide the 
seriousness which goes with the enforcement of safety rules.
    I, for one, and I know that I speak for a few of us here, 
don't want to see an expansion of triple trucks on our narrow 
roads in our populated areas. Safety factors--and I'm not 
asking you for a commitment here and now, but among the things 
you have to be thinking about, safety has to be one of the most 
important.
    So we wish you well. There is no doubt in my mind that 
confirmation is coming soon and that we will have a chance to 
get together and get to work.
    Thank you very much, Mr. Chairman. My whole statement, I 
hope, will be included.
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator From the State of 
                               New Jersey
    Good morning, and welcome Administrator Slater, I'm very glad to be 
here to lend my support for your nomination to be the next Secretary of 
Transportation.
    Your qualifications for this job are very strong. As the current 
Federal Highway Administrator, you have overseen a $20 billion U.S. 
Highway System and a nationwide work force of 3,500. In that capacity, 
you've dramatically transformed FHA policies and programs to better 
serve the people and industries who rely on our highway system. And 
you've also been a strong advocate for the advancement of women and 
minorities.
    If confirmed, you will play a critical role in ensuring that our 
nation makes much-needed investments in our transportation 
infrastructure. And I know you share my commitment to that goal. As you 
well understand, transportation generates 20 percent of our GNP, and 
every $1 billion invested in our transportation system yields more than 
25,000 construction-related jobs.
    Investment in transportation is also necessary to keep us 
internationally competitive. Americans spend more than 1.6 million 
hours a day stuck in traffic, at a cost to U.S. businesses of about 40 
billion per year. That's a burden our economy simply cannot afford.
    By reducing congestion, improving air quality and enhancing safety, 
effective transportation systems also improve our overall quality of 
life.
    This year we are facing renewed debate on the importance of 
transportation as we discuss the authorization of ISTEA. ISTEA is bold 
and innovative legislation that is helping to manage traffic growth, 
ensure access to jobs, and sustain our environment for future 
generations. It has improved planning and flexibility, emphasized local 
decisionmaking, and encouraged new technology.
    Now we need to extend ISTEA, to meet the transportation and 
economic challenges of the 21st century. We need to build on the 
legislation's innovative intermodal system. We should continue to 
promote state and local flexibility. We should use technology, or so-
called Intelligent Transportation Systems, to increase our capacity and 
efficiency. And we must maintain ISTEA's commitment to promoting 
safety.
    As we develop so-called ``ISTEA Two'', we need to remember that she 
choices we make will directly affect the lives of millions of ordinary 
Americans. Our decisions will affect where and how we live. Where we 
work. How we'll get there. And how long it will take.
    In many cases, our choices also will be a matter of life and death 
for thousands of Americans. And we shouldn't forget that. We will be 
deciding the safety of our roads, our rails, and our air travel.
    Unfortunately, over the past two years, safe often has taken a back 
seat to other considerations. We have lost our national speed limit. We 
have lost our motorcycle helmet and seatbelt laws. And, meanwhile, the 
problem of drunk driving has worsened. In my view, it's long past time 
that we made safe top priority. Administrator Slater, I strongly urge 
you to take on this challenge in your new position.
    We also need your help to ensure that transportation is adequately 
funded in the years ahead. In the coming months, Congress and the 
Administration will be working together to balance the budget. As 
ranking member of the Budget Committee, I'll continue to fight to 
ensure that our budget reflects the importance of transportation 
funding, especially when it comes to ISTEA reauthorization. I look 
forward to working closely with you in this effort.
    Administrator Slater, you have many formidable challenges before 
you, and I am fully confident that you are up to the task. I know you 
will be a Transportation Secretary who will work to maintain our 
infrastructure, to preserve ISTEA, to enhance safety, and to ensure 
adequate funding for our transportation needs. I look forward to 
working closely with you to ensure that all Americans can travel safely 
and efficiently as we move into the 21st Century.

    Senator Chafee. Thank you.
    Senator Lieberman.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thank you, Mr. Chairman.
    Mr. Slater, good morning. You're on a roll and I'm not 
going to stop it.
    You're extraordinarily well-qualified for this position, 
both by your recent experience in the Federal Government and in 
the State government as well. I must say, I was particularly 
struck and impressed by Senator Kempthorne's endorsement of 
practical government in Arkansas this morning. This, I found, 
to be good news. The truth is, you had some great practical 
experience under a pretty good Governor in that State.
    Mr. Slater. Yes.
    Senator Lieberman. Everybody has mentioned ISTEA because it 
will be the focus of our efforts here in this session of 
Congress. ISTEA was a revolutionary law brought to us by 
Senator Moynihan's leadership. It shows you can be both an 
intellect and a revolutionary. Of course some of the great 
revolutionaries of history have been intellects. This was a 
revolutionary law, which I think we can be pleased and proud to 
say, 5 years later, has worked, so that the effort that we'll 
focus on is building on the success of ISTEA with your help and 
your leadership.
    It strikes me also that one of the extraordinary internal 
results of the ISTEA effort occurred in this committee; in that 
year Senators coming from all over the country and from all 
sorts of political and ideological persuasions, were almost 
totally unified in support of ISTEA. A real consensus was built 
around a bold new idea. That doesn't always happen here.
    It's my hope here at the outset that with the continuing 
leadership of Senator Moynihan, with the leadership of Senator 
Chafee and Senator Baucus, that we can emerge with the same 
kind of unity and keep this successful program moving forward.
    I thank you and I look forward to working with you.
    Senator Chafee. Thank you, Senator.
    Senator Moynihan, your ears should be burning. Everybody 
had kind things to say about what you did in 1991 on the ISTEA 
legislation. I remember it very clearly, as do all the Members 
of the committee who were present, so we welcome you.

OPENING STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Moynihan. Mr. Chairman, think it's more properly 
said what we did as a committee. Senator Lieberman made the 
point--an important one--as you have repeatedly made welcoming 
our two new Senators, that much more often than not we have 
been a bipartisan committee; very rarely have we had partisan 
votes. We haven't always had unanimous votes. I hope we can 
continue in that mode.
    We have in Mr. Slater someone who has faithfully pursued 
the ISTEA principles, the intermodalism and the efficiency. He 
practices the idea that in transportation there is no such 
thing as a ``freeway.''--one pays for everything and tries to 
get the most from what one pays.
    I'm looking forward to Mr. Slater's comments on the 
financing of infrastructure. In the ISTEA legislation, we 
created a commission to promote investment in America's 
infrastructure. Mr. Flanagan was the chairman and came up with 
an important idea. I believe you mean to offer us some thoughts 
on this matter and I look forward to them very much.
    Senator Chafee. Thank you, Senator.
    Finally, last but not least, Senator Graham.

  OPENING STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Graham. Mr. Chairman, I had an opportunity to spend 
some time with Mr. Slater recently. I was impressed with his 
preparation and qualities to assume this important position.
    As has been said, this is an important year with the 
reauthorization of the Nation's basic surface transportation 
law. We are fortunate to have Mr. Slater providing us with the 
Administration's leadership on that important issue.
    I look forward to his statement and with more enthusiasm, 
look forward to working with him.
    Senator Chafee. All right. Now, Mr. Slater, you'll have an 
opportunity to make a statement. Let me say, after the ringing 
endorsements you've gotten from this group so far, all you can 
do is go downhill, I think.
    [Laughter.]
    Senator Chafee. I notice your statement is 17 pages, so I 
would ask that you summarize it because what we're going to do 
here is we've got 12 Senators and as soon as you're through, 
we're going to give everybody a chance to ask questions, 
following the early bird rule which I had announced sometime 
ago, that's the way the committee is going to handle things.
    I'm going to restrict each of the questioners to 5 minutes, 
but before we do that, we want you, and if you would, summarize 
your statement, I'd appreciate it, Mr. Slater. Go to it.

   STATEMENT OF HON. RODNEY E. SLATER, SECRETARY-DESIGNATE, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Slater. Thank you, Mr. Chairman, Senator Baucus, and 
Members of the committee.
    Thank you for inviting me to be here with you today to talk 
about the future of transportation in the Nation. Let me say, 
as an aside, that I very much appreciate the kind words of 
introduction by my State Senator, Senator Hutchinson, and also 
2 days ago by Senator Warner as he spoke on my behalf before 
the Senate Commerce Committee.
    This committee plays a vital role in keeping our 
transportation network operating smoothly. It is an honor to 
appear before you today as Federal Highway Administrator. I 
underscore that because I have had this honor on many occasions 
in the past, but now I also come before you as the President's 
nominee for Secretary of Transportation, and I am honored in 
that regard as well.
    I recall fondly and very specifically, May 19, 1993 when I 
came before this committee 4 years ago for confirmation as the 
head of the Federal Highway Administration. While it is true 
that you do not have the responsibility for confirming the 
President's nomination of me as Secretary of Transportation, I 
would say this and would say it without equivocation, that 
without your support 4 years ago, I would not be here with the 
opportunity to assume even higher responsibility. For that, I 
thank you.
    I am today, humbled by the trust that the President has 
again placed in me and I thank you for your trust 4 years ago 
serving as my confirming Senate committee to the position of 
Federal Highway Administrator. I know too that there are many 
people and organizations, across the country who have placed 
trust in me as well as Federal Highway Administrator and who 
now speak words in support of my nomination as Secretary of the 
Department of Transportation.
    I am determined to continue to pay back this investment in 
trust placed in me by this committee, first and foremost, the 
Congress as a whole, the transportation community, the 
President of the United States and, I might add, my loyal 
family.
    In this brief statement, I would like to talk to you about 
some of our accomplishments over the last 4 years and my vision 
and the values that will guide me as I work with you in 
preparing the Nation's Intermodal Transportation System for the 
challenges of the 21st Century.
    I have submitted, as you noted, Mr. Chairman, a written 
statement that outlines these accomplishments and this vision 
in greater detail, so my remarks here will merely summarize 
them.
    I view transportation as central to the life of this great 
Nation. President Clinton, in his second inaugural address, 
illustrated the role of transportation, though not speaking to 
it directly, but he spoke of the significance of the evolution 
as it relates to the history of the Nation and there you find a 
thread dealing with transportation.
    He said, ``We began the 19th Century with a choice, to 
spread our Nation from coast to coast. We began the 20th 
Century with a choice, to harness the industrial revolution to 
our values of free enterprise, conservation, and human 
decency.'' In the 21st Century, transportation will remain as 
central as it was in the 19th Century, allowing us to spread 
our Nation from coast to coast; and in the 20th Century, 
allowing us to harness the industrial revolution to our values 
of free enterprise, conservation, and human decency.
    The President, in speaking of the 21st Century and the role 
that transportation will play noted it in this way, again not 
speaking specifically of transportation but the thread is 
there. He said, ``We have, in this century, the opportunity to 
unleash the limitless potential of all our people.''
    I've said time and time again that transportation is about 
more than concrete, asphalt, and steel, it's about people. 
Their access to opportunity, their pursuit of happiness.
    Our intermodal transportation network, like the United 
States as a whole, is far more than the sum total of its parts. 
I might note, Senator Baucus, that you spoke to that issue very 
well in your introductory remarks. It affects every aspect of 
our lives as Americans, all Americans, day in and day out.
    What I want to do is close my remarks with a focus on ISTEA 
because I think it speaks to the very essence of the challenge 
before us as we really try to prepare for the transportation 
challenges of the 21st Century.
    Let me mention that it will not only be one of my 
objectives to make safety a priority, safety will be our 
highest priority, Senator Lautenberg, and I know that is an 
interest of all of you Members of this great committee.
    Also, the role of transportation and its relation to our 
economy and to our quality of life will be second only to a 
focus on safety. As has been noted earlier, transportation does 
represent some 17 to 20 percent of the gross domestic product 
of our country. It is vital to our economy.
    Finally, there will be again and again, a demonstration of 
a commonsense approach to government in solving the problems of 
the American people. We have tried to respond with care and 
dispatch to natural disasters; we have changed rules and 
regulations to make it easier for States to do the work they do 
best; we have brought innovative financing to the fore to make 
it possible to leverage resources of the private sector; we 
have tried to evolve as you have challenged us to evolve with 
this very revolutionary, as you have noted, piece of 
legislation.
    So let me move then to a brief discussion about it and the 
important role it will play as the centerpiece of any 
transportation philosophy that moves us to the post-interstate 
era.
    At the Department as with this committee, we have very, 
very important work ahead of us in vital areas, but perhaps 
nothing we do in 1997 will affect the American people more than 
the reauthorization of the Intermodal Surface Transportation 
Efficiency Act of 1991. So let me offer a few comments in that 
regard.
    First, I commend this committee for its role in shaping the 
post-interstate era through the passage of ISTEA. It took 
courage and it took vision to really bring together the will, 
the focus and the vision of a then-Democratic Congress, but 
also in a bipartisan way with Republican Members, to work with 
a Republican President to shake up the system, if you will, and 
to start afresh and to turn from proven paths.
    I was not here at the creation of ISTEA, I was serving at 
the State level but watching very carefully the challenge that 
would be put before us.
    One of the accomplishments I'm most proud of in these past 
4 years is the honor and the privilege of having had the 
occasion to lead an agency with skills and with understanding, 
and yes, with the capacity to change in changing times, to help 
build new relationships to establish a new balance, a new 
balance that ISTEA called for.
    The poet, Robert Frost, has written, ``Two roads diverged 
in a wood and I, I took the road less traveled by and that has 
made all the difference.'' By taking the path of ISTEA, the 
path that in 1991 was less traveled by, this committee and its 
counterpart in the House, the Transportation and Infrastructure 
Committee, have indeed made all the difference.
    We, in the Federal Highway Administration, and all of the 
members of the DOT family, along with all of our partners in 
the public and private sectors, have enjoyed the opportunity 
that we have had to make your vision a reality.
    ISTEA is about choice, about choice. Senator Wyden said, 
``Give the States the opportunity to make decisions, to 
demonstrate that we can invest in infrastructure and still 
improve and enhance the environment.'' Well, ISTEA is about 
choice, about local decisionmaking, ISTEA is about protecting 
the environment, ISTEA is about all forms of surface 
transportation and it's not, as you have well noted, a highway 
bill. It deals with renewed emphasis on bicycling and walking, 
about enhancing the vision to include national scenic byways.
    Chairman Chafee, I was most pleased that you joined us a 
few weeks ago in the Indian Treaty Room as we paid tribute, 
Senator Sessions, to the Selma to Montgomery route that is now 
an all-American road and speaks to the very essence of what 
being an American is all about.
    ISTEA is also about harnessing technology and serving a new 
century with technology. Senator Lautenberg, as the father of 
ITS, you know exactly what we mean here. ITS technology is 
Intelligent Transportation Systems, high speed rail and I do 
believe that we, in casting a wide net for the future, Senator, 
can deal with the issue of magnetic levitation. We talked about 
that yesterday.
    In 1997, we approach reauthorization with diverse 
transportation communities coming together in one voice, and 
the voice says, ``don't discard that which is working well,'' 
and I'm here today to say, we do not intend to do that.
    Let me close my remarks by saying this, we have a unique 
opportunity as we approach a new millennium to chart a course 
that can lead us--well, as the golden spike led us, as the 
Wright Brothers at Kitty Hawk led us. We are only limited by 
our dreams and our will to follow through on those dreams.
    If confirmed by the Senate as the Secretary of 
Transportation, I will be serving in a new role, yes, but I 
want to assure all of you that I will take a very strong and 
active role in working with you on behalf of the President to 
enact a reauthorization legislation that really speaks to the 
future demands of transportation as we approach the 21st 
Century.
    I'd like to say, Senator Warner, it is my hope that this 
new vision can meet the goals you outlined last September in 
making your comments about the importance of this piece of 
legislation. I want us to complete the process by September 30, 
1997. I am confident that we can do that working together.
    It is an honor to sit before you, it is an honor to really 
work toward enhancing a piece of legislation that has clearly 
demonstrated that the Federal Government has a role to play in 
balancing regional interests so that each State benefits in 
taking the lead in technological advances and safety, in 
ensuring that transportation achieves national goals as well as 
responding to State and local interests in doing what Thomas 
Jefferson called upon us to do, ``To establish a union of 
sentiment that holds this great Nation together.'' I am pleased 
that we will have the opportunity to do just that as we work 
toward the reauthorization of a most important piece of 
legislation.
    Thank you.
    Senator Chafee. Thank you very much for a very fine 
statement, Mr. Slater.
    Now, we're going to have 5 minutes of questions from each 
Senator and I'm going to be pretty strict. The lights will go 
on and when the red comes, that means one's time is up. If 
everybody can adhere to that, then everybody will get a chance. 
We've got a wonderful turnout of Senators here today and I want 
to make sure everybody gets an opportunity.
    If the lights will start, Mr. Slater, I just put great 
store in what you said about ISTEA, that it is an intermodal 
surface transportation act; it's not a highway bill. I hope 
that you and the Administration are going to come forward with 
a renewal and reauthorization of ISTEA. I would greatly hope 
that legislation incorporates what you have said concerning the 
words of ISTEA. Is that going to be the way you're going to 
operate?
    Mr. Slater. Mr. Chairman, you have that commitment, yes, 
sir.
    Senator Chafee. Because it isn't just pouring concrete, it 
isn't just widening, adding more and more lanes. Senator 
Moynihan and I, and others, in 1991 worked on this and there 
are wonderful things that can be done.
    It also involves choice. As you know, in ISTEA, there is a 
part dealing with enhancements and the local communities have 
done outstanding things in connection with the enhancement 
legislation.
    Senator Roth has asked me to address the question of 
Amtrak. Are you going to be dealing with Amtrak in the ISTEA 
legislation?
    Mr. Slater. Yes, sir, we will, Mr. Chairman. It is our 
belief that a nationwide passenger rail system is essential to 
meeting the transportation demands of the 21st Century. We do 
have to deal with the very difficult, thorny, yet important 
issue of funding for Amtrak. Hopefully, we will, at some point, 
be able to achieve our goal of ensuring that Amtrak is self-
sustaining.
    Senator Chafee. You touched on the safety issues. When we 
did the National Highway System legislation, I was pummeled on 
the floor, I don't think I prevailed on any of the safety 
measures and they were in the Act, as you recall. They were in 
the ISTEA legislation, the motorcycle helmet legislation, for 
example.
    However, the seatbelt did survive. I think at that point, I 
was batting about .091, so that pulled up my average somewhat.
    Now, I notice that DOT had a goal of 75 percent of 
occupants with safety belts. First of all, could you just 
briefly touch on the efficacy, as you see it, of seatbelts, and 
second, what can we do, particularly in connection to increase 
their usage, particularly in connection with light trucks?
    Mr. Slater. Yes. Let me just say, Senator, your point is 
well taken about the general issue of safety as relates to the 
NHS bill. While the bill was a major achievement, being able to 
identify really 4 percent of the road system in the country 
that would carry over 40 to 45 percent of all the traffic in 
the country, 75 percent of the truck traffic, 80 percent of the 
tourist traffic, that was quite an undertaking and it resulted 
from considerable cooperation between the Federal, State, and 
local governments with some participation by the private 
sector. So it was a good thing.
    We did unveil our proposal for the NHS at Union Station so 
as to underscore its importance not only as a highway system, 
but as the tie that binds all of the modes of transportation. 
As you know, we followed up rather expeditiously with the 
various intermodal connections.
    Your point is well taken that the bill did include a lot of 
safety provisions that we, in the Administration, found very, 
very troubling. We joined you and other Members of the 
committee in making our positions clear in that regard.
    I think, as the writer would say, we came from battle with 
our heads bloodied but unbowed because we made a commitment to 
renew our focus on safety.
    There was the success of securing the provision as relates 
to safety belts, its continued use. Right now, the national 
average for the use is about 68 percent. We do have a 
commitment to go up into the 1970's. I'd like to say, Mr. 
Chairman, that we're also looking at a major initiative that 
would have a goal of 90 percent usage.
    Senator Chafee. One final question because it's going to 
turn red in a minute. Quickly, the Administration will send up 
legislation. When do you foresee that?
    Mr. Slater. We hope to have it ready around the end of 
February, but when we unveil our budget in the next few days, 
you'll see a general outline as relates to some of the 
financing provisions.
    Senator Chafee. Good. Thank you very much.
    Senator Baucus.
    Senator Moynihan. Mr. Chairman, could I suggest the 
committee might informally agree that the Chairman gets an 
extra 5 minutes?
    Senator Baucus. That's a good idea.
    Senator Chafee. That's wonderful except I want to get 
reelected chairman.
    [Laughter.]
    Senator Chafee. Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Slater, I wonder if you could comment on your efforts 
and the prospects of increasing the budget levels for 
transportation compared to what's going to be in the 
President's budget?
    Mr. Slater. Yes. Well, as I noted earlier, second only to 
safety as the highest priority, will be the issue of focusing 
on the importance of transportation to the economy and trying 
to get the greatest infrastructure investment commitment 
possible.
    I am pleased that we were able to raise the level of 
investment in infrastructure about 20 percent across the board 
during the last 4 years and we did that with the aid and the 
assistance of the Congress. Prior to 1993, the average had been 
$21.1 billion. From 1993 to 1997, it's $25.5 billion.
    It is our hope that we will be able to maintain that level 
even though there is the stronger commitment, not only now by 
the President to cut the deficit in half, as was the commitment 
the first 4 years, but to actually balance the budget by the 
year 2002.
    The President has made it clear that as we cut, we should 
also invest in those things that enhance the economy, enhance 
our quality of life, and that build for the future. 
Transportation and infrastructure is clearly one of those.
    Senator Baucus. The numbers just on highway, excluding 
transit?
    Mr. Slater. Excluding transit, the figure has been about 
$20 billion, about 20 percent more than the previous 4 years.
    Senator Baucus. You wouldn't be adverse to this committee 
passing legislation that would increase that amount, would you?
    Mr. Slater. Let me just say that clearly this committee has 
played a very important role in that regard in the past. I'm a 
team player when it comes to the President's team and I know 
that the President has the dual challenge of trying to balance 
the budget and keep focus on those priorities that he has first 
and foremost, but he works with the Congress as we've seen in 
the past budgets over the years.
    Just the other day, Senator, you were instrumental in 
getting the signatures of practically all interested Members of 
the Senate on a letter addressing the funding issue.
    Senator Baucus. We want to work with the Administration 
too, but as you know, there are 57 signatures on that letter 
and I think that's a pretty good indication of where the Senate 
is on this issue.
    Mr. Slater. It's a very good indication.
    Senator Baucus. On funding formulas, clearly we're one 
country and we're clearly a country with different needs and 
purposes. When the Administration sends its proposal to the 
Congress, I'd just like to remind the Secretary that it has to 
be certainly cognizant of the west insofar as that's the part 
of the country with lots of Federal land. In my State of 
Montana, it's about 30 percent. I think Nevada--and Senator 
Reid can speak to this better than I--it's like 90 some 
percent. Utah, I think it's around 60 percent. It's Federal 
land we're talking about here.
    Mr. Slater. I understand.
    Senator Baucus. Therefore there is a need for any highway 
bill to recognize that.
    Second, these are parts of the country where we don't have 
any ability to raise revenue for ourselves. My State of Montana 
has the second highest State gasoline tax. We're trying to do 
our best but we can't have toll roads because there are no 
people to pay for a toll, not enough frequency.
    I very much remind you to be sure that any bill recognizes 
not only the northeast, the west and south, but also those 
particular points of view.
    Mr. Slater. Sure.
    Senator Baucus. I might also add that the current 
intelligent transportation system budget of $250 million is 
very inadequate with respect to rural intelligent 
transportation technology. With all due deference to my very 
good friend from New Jersey, there's a category as an 
expenditure and a grant, and they call it rural technology in 
New Jersey.
    I might point out that I'm sure there are rural corners in 
New Jersey, even though the population density of New Jersey is 
over 1,000 people per square mile, whereas in Montana, it's 
about 6 people per square. There's rural and there's rural and 
the real rural is west of the 100th meridian where it doesn't 
rain. It's not east of the 100th meridian where it does rain.
    Rainfall here is about 50 inches a year in Washington, DC. 
In Montana, the average precipitation is about 15 inches. 
That's everything, snow, rain. That's the main reason why 
there's vast differences among towns, because there is no 
water.
    Mr. Slater. Sure.
    Senator Baucus. So, I'd like you to look at that.
    The other issues which I don't have time to mention, but 
which I will submit to you in writing, include the Department's 
view on essential transportation service.
    Mr. Slater. Very supportive of that, sir.
    Senator Baucus. I know and appreciate that. Second, on 
weather systems, FAA is reducing human personnel in weather and 
it's causing huge problems, and beyond that, trust fund issues 
and NAFTA, trucking as well as control tower at Gallatin Field.
    Thank you.
    Senator Chafee. Thank you, Senator.
    Senator Hutchison.
    Mr. Slater. Mr. Chairman, may I speak briefly to one point 
that Senator Baucus raised?
    Senator Chafee. Very briefly.
    Mr. Slater. Very briefly. Dealing with the issue of the 
West, we have most of our dynamic growth in the country 
occurring in the Southeast and the West and clearly, if 
transportation is going to speak to the overall health and 
well-being of the economy of the Nation, those points that you 
raise have to be taken into account when we decide how the 
formula is to operate. Your points are well taken.
    You also challenged me at the first hearing I had before 
the committee, to get out of Washington, to visit all parts of 
the country. I did that, I've been to Montana a number of times 
and I was pleased that Senator Sessions also mentioned that 
I've been to Alabama.
    Senator Baucus. I want to compliment the about-to-be 
Secretary. It's true, he's traveled all over this country and 
has been to my State several times. I very much appreciate 
that.
    Mr. Slater. Thank you, Senator.
    Senator Chafee. Well, we've got a little dispute here, so 
Senator Hutchison, if you can retreat a bit.
    Senator Warner.
    Senator Warner. I yield to Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Slater, I appreciated your comment and we're so proud 
of you in Arkansas. I'm delighted at the great leadership 
you're giving in this area. I especially appreciated your 
comments that there is few, if any, pieces of legislation that 
this Congress, this Senate will deal with that's going to touch 
more lives, more Americans than the reauthorization of the 
ISTEA bill. Every American is impacted by transportation, so 
it's critically important.
    I appreciated Senator Baucus and his remarks that this is a 
United States and this committee has been noted, both on the 
House side and our parallel committee, with bipartisanship and 
working together.
    In order to produce a bill that will have that kind of 
bipartisan spirit and unit, we're going to have to have 
fairness. We're such a diverse committee and we're such a 
diverse country--the West, Arkansas where mass transit is 
almost unknown, and the Northeast. For us to maintain that kind 
of consensus and unanimity, there's going to have to be a 
prevailing spirit of fairness among the various regions 
represented.
    The funding level has been referred to and I want to add my 
voice to what Senator Baucus and others have said on the 
importance of having sufficient funding for ISTEA, that this is 
an investment, that there are few parts of the budget that we 
can get a greater return for all Americans than having adequate 
funding for ISTEA, increased funding for ISTEA.
    The formula goes right to the fairness and I'm anxious to 
see what the Administration will propose. States like Arkansas 
that are rural, where people travel a long ways to get to 
work--there's no State you're more familiar with. Arkansas is 
experiencing great growth and it's not just a highway bill, but 
in Arkansas, highways are critical to facilitate the growth 
that we're experiencing.
    With the passage of NAFTA, the increased trade that NAFTA 
represents, what we do on surface transportation in Arkansas is 
going to be critical to the future economic growth and 
prosperity, the opportunities that are afforded the people of 
my State. So I'm going to be very interested and very concerned 
about what we do on that formula.
    Arkansas is a donor State, we travel a long ways, we buy a 
lot of gas, we pay a lot of gas taxes, and we don't get it 
back, I'm afraid, oftentimes.
    Let me pose three questions as I conclude and give you an 
opportunity to respond. Can we expect an Administration 
proposal reflecting changes in the funding formula from the 
1991 passage of ISTEA? What would you suggest to ensure that 
rural States like Arkansas will be on equal footing with 
larger, more populous States? What are your plans to ensure 
that Amtrak services are provided for rural communities and it 
not just be a northeast corridor kind of service?
    Mr. Slater. Let me start with the last question first and 
work backwards. Clearly, I believe that Amtrak should be a 
national system. We have to work with State and local 
governments to ensure the funding for that, but the Federal 
Government should be a partner in that process as well. We 
should all work to get Amtrak to a point where it is self-
sufficient. I think the staff there is doing an excellent job 
under the leadership of Tom Downs and I believe we can get 
there.
    Senator Hutchison. Mr. Slater, they're wanting to shut 
down.
    Mr. Slater. I understand. We've got to move on it quickly 
and I am hopeful that I will soon have the opportunity to join 
firsthand in many of the activities underway at the Department 
as Secretary and I will commit to do that upon confirmation if 
I'm so honored to be confirmed.
    As relates to the issue of fairness in the formulas, that 
really speaks to the first question as well, clearly we would 
like to ensure that there is a sense of fairness in the 
process. If there isn't, then the process breaks down.
    This is a United States. Jefferson talked about a union of 
sentiment; that's exactly what we have to find. You were able 
to find it as a committee during ISTEA and the deliberations 
then. It's been evident in the Transportation and 
Infrastructure Committee as well, which is made up of diverse 
interests.
    We can get there but everyone has to come to the table 
really being guided as Lincoln would say, ``by the better 
angels of our nature'' if we hope to make it work for us. I 
think we can do that. This is an issue that is too important 
for us not to be successful. We must be successful.
    Senator Chafee. Thank you very much.
    Senator Hutchison. Thank you, Mr. Chairman. Thank you, Mr. 
Warner.
    Senator Chafee. Senator Warner.
    Senator Warner. I think I'm going to have to say we're 
moving around here with too many softball questions and 
answers. I want to tighten this up.
    Let's get down to the question of formula. Do you think 
that formula should be revised in such a way as to reflect 
current data as opposed to so much of the archaic data now 
being used?
    Mr. Slater. Yes.
    Senator Warner. That's a clear answer. On the question of 
the budget, we in Congress think more money should be put into 
the highway section. Have you advocated that in your budget 
discussions with your President and others?
    Mr. Slater. We have.
    Senator Warner. Now, on the issue of who is going to be 
spokesman on the question of ISTEA and its many ramifications, 
clearly other departments and agencies of the Federal 
Government have a voice but I'm concerned that within the 
Environmental Protection Agency, there seems to be a voice or 
two saying they're going to be the dominant spokesman.
    I think this committee and, indeed, the Senate as a whole 
would want you, as Secretary of Transportation, to be the 
principal spokesman for the President on ISTEA. Are you 
prepared to say that's the way it's going to be?
    Mr. Slater. ISTEA is a transportation bill. It is only 
appropriate for the Secretary of Transportation to be a lead 
voice in that regard.
    Senator Warner. Thank you. That's a clear answer.
    Now, on the issue of safety, all of us are very concerned 
about the recent reports on drunk driving. We have to apply our 
wisdom and see what we can do to help. Could you specifically 
say how you'd deal with the drunk driving increases, 
particularly among teenagers?
    Mr. Slater. Exactly. Let me just say that while there were 
some battles lost in the effort to secure the passage of the 
National Highway System, we did retain the seatbelt law, but, 
Mr. Chairman, we also added a provision that deals with zero 
tolerance, a very tough provision. It deals specifically with 
teenagers. We want to move forth aggressively to work with the 
States, to fully implement that provision.
    We also have discovered that, while we have made a lot of 
advancements on the safety front with improvements to the 
vehicle, improvements to the roadway, the transportation system 
itself, the issue of behavior is one that needs significant 
attention, whether that's a motor carrier operator, whether 
that's a Metro driver, that's where we want to focus.
    Senator Warner. Are you going to come up with a specific 
set of recommendations on this on behalf of the President?
    Mr. Slater. Yes, we will.
    Senator Warner. Now, the Highway Trust Fund is designed on 
the user-pay principle?
    Mr. Slater. Yes.
    Senator Warner. Yet, there is considerable effort to try 
and bring in other beneficiaries, namely the Amtrak. How do you 
wish to deal with that issue because I'm concerned if we stray 
from user-pay principle, it will weaken the whole concept of 
the trust fund. I lean to keeping it as pure as we can. Where 
do you stand on that issue?
    Mr. Slater. Well, I think we should keep it as pure as we 
can, but I do raise for the committee's consideration the fact 
that we were able to add transit as a recipient of trust fund 
dollars some time ago and we have significantly improved our 
transit system as a result of that.
    We also have many individuals who may use their automobiles 
for one purpose, resulting in the deposit of resources in the 
trust fund through that activity--using their cars and the 
like--but who may use Amtrak for other purposes. So I do think 
we have to be sensitive to those factors as we answer this 
question. I'm open to any advice the committee would have to 
offer in that regard.
    Senator Warner. That's a diplomatic answer but I lean 
toward purity.
    Mr. Slater. OK. I understand.
    Senator Warner. Mr. Chairman, I asked my questions, direct 
answers, and I'm under my time to accommodate you.
    Senator Chafee. Thank you very much, Senator.
    Senator Kempthorne.
    Senator Kempthorne. Mr. Chairman, thank you very much.
    Mr. Slater, I appreciate that you've stated that safety is 
the highest priority.
    Mr. Slater. Yes, sir.
    Senator Kempthorne. So I want to talk about a safety issue 
that is the highest priority today in your department. It is 
critical, and that is airbags in automobiles. Why do I say 
that, because we currently have a Federal standard that is 
killing children.
    In March 1996, a hearing was held before the Commerce 
Committee in which the Administrator of the National Highway 
Traffic Safety Administration within the Department of 
Transportation stated, ``We have investigated 15 crashes since 
the late 1980's in which a child has been fatally injured by a 
passenger side airbag.'' Ten months later, Mr. Slater, the same 
committee, same topic, only it was 32 dead children, 10 months 
later, based on a standard that the Department of 
Transportation has predicted will kill more children than it 
will save.
    One of those kids was an Idaho child, 1 year old. The day 
before last Thanksgiving when that little 1-year-old baby, 
whose mother was in a minor fender bender, that baby was 
decapitated. Seasoned police officers that responded to that 
scene were traumatized by what they saw.
    During that Commerce hearing, which they gave me the 
courtesy of sitting in on and asking questions on January 9, 
1997, I asked the Administrator, Dr. Martinez, if he would 
issue a proposed rule change calling for the elimination of the 
unbelted test standard for airbags.
    As you know, we currently have a standard that is based 
upon saving an adult male who has chosen to not wear his 
seatbelt, even though in 49 States it's the law that you wear 
your seatbelt. In order to save the father, we are running the 
risk of losing the child.
    The National Transportation Safety Board supports what I 
have suggested, which is to eliminate that unbelted standard 
and go to a belted standard that will still then save the life 
of the adult, but not cause the death of the child.
    Dr. Martinez stated that he believed at that time that he 
did not have the authority to unilaterally change the unbelted 
standard. I told him that I disagreed with him. I informed him 
that Majority Counsel for the Commerce Committee believed that 
Dr. Martinez did, indeed, have the authority to go forward with 
that proposal. Dr. Martinez said, in response to my question, 
and I quote from the transcript, ``Mr. Kempthorne, if I have 
the legal authority to do that, I will do it.''
    I have in my possession now an opinion from the law firm of 
Myer, Brown & Platt, and in this opinion, it states, and I'll 
just read a concluding remark, ``Nothing in the ISTEA or the 
codified Vehicle Safety Act explicitly or implicitly constrains 
NHTSA's authority to repeal the unbelted compliance test for 
certification with MSVSS 208.''
    I will have delivered to you today an opinion from the 
Congressional Research Service, American Law Division, Counsel 
of Jurisdiction supporting that opinion.
    Mr. Slater, in light of the legal authority and opposition 
to what NHTSA is contending, would you, as the Secretary of 
Transportation, ensure that your department will go forward 
with a proposed rule change so that we can seek public comment 
as to whether that is the solution?
    Mr. Slater. Let me answer the question this way, if I may, 
Senator. First of all, I'd like to commend you and Members of 
the Commerce Committee, in particular, for providing the 
hearing and the opportunity to have this issue aired openly as 
it should be.
    I don't think any of us relish the thought of having in 
place rules and regulations that create a situation like the 
one that you've just mentioned. I know I personally don't. I've 
got a 3\1/2\-year-old daughter that all of you can see and I 
know there are other parents around the country who have the 
same kinds of concerns. I also frankly feel for the families 
that have lost loved ones because we don't have a clear answer 
on this issue.
    Let me make this assurance to you and commitment to you. I 
will deal forthrightly with our legal counsel, legal staff, to 
assess from our perspective the validity of the opinions that 
you just stated and that we will move on this issue in a most 
expeditious fashion.
    I will meet with Mr. Martinez, who I believe now has done 
really a good job as the head of NHTSA, but clearly this is a 
matter on which there is disagreement, but I will meet with him 
forthrightly and we will come to a conclusion in dealing with 
this matter, I think, Senator, in a way that you will be 
pleased with. I make that commitment.
    Let me say I make that commitment also with the 
understanding that I still have to be confirmed. I've been 
nominated, I have to be confirmed before I am actually the 
Secretary of Transportation, but I make that commitment here 
today if I am so honored to be confirmed by the Senate.
    Senator Moynihan. Mr. Chairman, may I make a brief 
statement off the record?
    Senator Chafee. Brief.
    [Brief statement by Senator Moynihan off the record.]
    Senator Kempthorne. I appreciate that, Mr. Slater.
    Again, Mr. Chairman, I would just reiterate currently we 
have a Federal standard that must be complied with which our 
own Government predicts will kill children and it has happened 
too many times. It has to stop.
    Senator Chafee. It does seem bizarre that this thing can't 
be straightened out. I concur with Senator Kempthorne, what he 
said.
    Senator Kempthorne. Mr. Chairman, may I just thank Senator 
Moynihan and you for your comment. Senator Moynihan, just as 
you have pointed out how things change, when this first was 
being considered and standards devised, seatbelt usage was at 
11 percent; today, it's at 68 percent.
    Senator Moynihan. That's what we hoped for.
    Senator Chafee. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Slater, as you and I discussed, my State was showcased 
recently in the national media, the Wall Street Journal and the 
New York Times came to my hometown and basically said, we're 
the model for showing that you can have growth and at the same 
time, prevent some of the pollution and degradation kind of 
problems you have elsewhere. The key to all of this is really 
flexibility, flexibility under ISTEA.
    My first question to you is, do you have any thoughts on 
additional ways to promote flexibility under ISTEA, 
particularly with respect to ways to promote flexibility so 
that communities can invest in new options which we feel has 
been one of the keys to the progress we've made?
    Mr. Slater. Senator Wyden, there are clearly more ways that 
we can be flexible in implementing the provisions of ISTEA. I 
will say this, though, one thing we're trying to do is 
encourage States and locales to fully exercise the flexibility 
they have. We've had significant success and response in that 
regard.
    As we prepare reauthorization proposals, we are looking at 
new ways that we can encourage that flexibility and local and 
State decisionmaking processes even more. We'll be in a 
position to speak more specifically about that with the 
unveiling of our proposal later in February.
    Senator Wyden. In the same kind of vein, we're very 
interested in the New Starts Program. We want to have in the 
metropolitan Portland area a transit system from south north. 
We've generated a significant amount of local funds to do it. 
The projections are we'd reduce air pollution by something like 
721 tons per year.
    Are you a strong supporter of the New Starts Program and 
outline, if you would, your views on that?
    Mr. Slater. Well, I'm a supporter of the program. I do 
believe that it serves to enhance the environment, and look 
forward to working with you and others to improve on its 
implementation.
    Senator Wyden. Jump with me from the urban area to the 
rural area just for a second. Here we have a different set of 
problems. We have communities that are seeing, as a result of 
wrenching social changes particularly in the environmental 
area, a situation where they don't have some of the funds for 
road improvements with their tax base.
    What is your position on the Federal Lands Highway Program, 
one that really makes a difference in the small, rural 
communities that are undergoing these wrenching changes?
    Mr. Slater. I'm supportive of the program. I think it has a 
significant application in the west because of the presence of 
a lot of Federal lands, as noted earlier, which prevents States 
from taxing the lands in ways that they're able to tax them in 
other locations where they don't have the Federal character to 
them.
    I think we've had significant success with our Federal 
Lands Program. I can tell you that one of my key objectives 
upon becoming Federal Highway Administrator was to visit all of 
our Federal Lands offices because I think there we have been on 
the cutting edge when it comes to implementing projects that 
really take advantage of enhancing the environment. We have a 
quality staff and we're working in concert with the Department 
of Interior and our State and local partners and I think we're 
doing a good job. I'm very supportive of the program.
    Senator Wyden. Last question. On the issue of growth 
management, we touched on it a bit in the office. What I think 
is especially exasperating about Federal policy is that we can 
have communities in States, Senator Chafee's and mine, are 
examples of States that have really gone out and done some 
heavy lifting to put in place good road management kind of 
plans and in effect, we get penalized under Federal policy.
    You do it once at the local level in order to satisfy a 
growth management plan and then you basically don't get any 
credit for it when you have to comply with a Federal statute. 
It seems to me we ought to be creating incentives at the 
Federal level for good, local growth management, not Federal 
zoning, not something at the Federal level, but incentives for 
good growth management at the local level.
    Do you have any ideas on how ISTEA, in particular, might be 
used to create incentives for sensible growth management on the 
local level?
    Mr. Slater. Well, as I mentioned earlier, as relates to 
goals, safety being the No. 1 priority, and then second, 
dealing with issues of transportation in such a way as to 
enhance the economy and our quality of life, you get into these 
kinds of discussions.
    Looking to the local governments to also speak to the 
heritage and character and culture of the country, speaking to 
its soul and its heart, we have some fine examples of how 
resources have been used in that way.
    Senator Wyden. My time is up, Mr. Chairman. Let me just say 
to my colleagues, and Chairman Chafee has been especially 
gracious to me, this is an opportunity to create an 
extraordinary win-win situation, an opportunity to have better 
growth management on the local level, and a chance to save our 
businesses time and money because our businesses, in effect, 
have to duplicate often at the Federal level what they go 
through at the local level.
    Mr. Chairman, I yield.
    Senator Chafee. Thank you.
    One of the things from ISTEA that has been very successful 
was the scenic byways and we've used it in our State and 
Senator Moynihan is very familiar with it, as are many others 
here, probably a few in your State.
    Senator Sessions.
    Senator Sessions. Mr. Chairman, thank you.
    I have just one matter that I would like to raise. I think 
it's important. I had the unfortunate difficulty of having a 
budget deficit when I became attorney general and we had to 
terminate the employment of one-third of the people in our 
office. We reorganized and people chipped in and actually 
increased the legal productivity of that office.
    Bureaucracies, as they grow, become more and more 
inefficient. I know the President has talked about reinventing 
government. Let me just ask you, would you make a commitment to 
honoring the taxpayers of this country by constantly reviewing 
your entire, overall bureaucratic team to make sure that our 
people are productively employed in that regard?
    Mr. Slater. Senator, we make that continued commitment. We 
have actually worked hard to bring common sense strategies and 
initiatives to government to ensure that we would meet the 
President's and the Vice President's charge to create a 
government that works better and costs less.
    In that regard, we've actually cut the DOT employment force 
by about 11,500 employees, in Federal Highway alone, more than 
440 or so, and that's across the board. The Coast Guard has 
engaged in significant restructuring. We have quality 
legislation now that will allow us to do a lot of significant 
restructuring as relates to acquisition, personnel reform in 
the FAA. The same holds true for Maritime. So we are fully in 
the course of doing exactly as you have encouraged us to do 
even more and we'd make that commitment.
    Senator Sessions. It takes leadership from the top or it 
just won't happen. There is no doubt about that.
    Mr. Slater. There will be that leadership, sir.
    Senator Sessions. I know you are committed, as you 
responded to the Chairman, to a broad range of transportation 
possibilities, but are you committed to improving, 
strengthening, and expanding the healthy interstate and 
national highway system as well?
    Mr. Slater. Senator, I am. Let me just say that one of the 
most significant events that I engaged in in the past year was 
to celebrate the 40th anniversary of the interstate system with 
a cross-country road tour. Senator Moynihan, I mention this 
because last evening, we talked a bit about Lieutenant Colonel 
Eisenhower's road tour in 1919. Mine actually traced in reverse 
much of his trip. I started at the Presidio where he ended and 
traveled across the country ending in Washington at the 
ellipse.
    During the course of that trip, I traveled in the west, 
Senator Baucus, and saw a lot of the wide, open spaces. I 
actually met in Wyoming with the head DOTs of a number of the 
western States and we talked about many of the issues you 
raised dealing with formulas and the presence of Federal lands 
and the like.
    Let me say quickly what I did that I think speaks to the 
essence of the point that Senator Sessions makes. Not only did 
I see the system as it was, which I think Lieutenant Colonel 
Eisenhower wanted to do, but you also, in seeing it as it is, 
think about it as it can be. As I looked at what it is, I saw 
clearly the most impressive public works project ever 
undertaken in the history of humankind, but I also saw other 
things, Senator Moynihan.
    I did see where, in certain instances, we really have an 
opportunity when we go back and reconstruct some of those 
portions that are in a state of disrepair now, such as I-15 in 
Salt Lake City, to do it in a way that will actually enhance 
the environment in which the reconstruction will occur and at 
the same time, preserve the country's investment in the system 
that cost us about $130 billion.
    I also met with a group called the I-69 Alliance in 
Indianapolis, IN and they wanted to talk about the need for the 
continuation of I-69 that starts at the Blue Water Bridge in 
Port Huron, MI and extending it all the way to the lower Rio 
Grande Valley in Texas.
    We talked about that. We talked about all of the 
interstates that come together there, but we also talked about 
some new improvements that might be made. As you know, that 
particular project is an NHS high-priority corridor under 
ISTEA.
    Then, finally, I want to say this. In tribute to President 
Eisenhower, we met in his home city of Abilene, KS along with 
all of the people, organizations that have been involved in the 
creation of the interstate system and there we signed a solemn 
pledge to work with the Congress to ensure that we maintain our 
investment in that system.
    We also renewed that commitment at the most recent AASHTO 
meeting where we gathered again. We do want to preserve that 
system, but we also want to build on it. That doesn't mean more 
lane miles, it may mean better connections with the rail lines 
or to transit facilities or to airports and the like, focusing 
on intermodal connectors, that sort of thing.
    We have sought to embrace the kind of vision that led Mr. 
Eisenhower in 1919 to not only see what was, but what can be.
    Senator Chafee. I'll turn to the class historian. I believe 
that later Governor Volpe, then John Volpe, was head of the 
Federal Highway Administration when the interstate highway 
system under President Eisenhower was started. Is that right, 
Senator Moynihan?
    Senator Moynihan. Yes, sir.
    Senator Chafee. I knew you'd have an answer.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Mr. Slater, there's kind of a difference of opinion between 
the House and the Senate on demonstration projects. How do you 
feel about that?
    Mr. Slater. Well, the Administration has taken the position 
that we are opposed to demonstration projects. Clearly, those 
resources come off the top and they don't move through the 
distribution mechanism of the formula that really provides 
States and locales, through the planning process, with the 
freedom of deciding how those resources should be expended. 
That is the position of the Administration.
    Senator Smith. In the question the Chairman asked earlier, 
or comments maybe rather than a question, regarding seatbelts, 
New Hampshire is the only State out of the 50 States that does 
not have a seatbelt law. However, in its defense, New Hampshire 
has a compliance rate higher than many of the States who do.
    Is it fair to punish a State such as New Hampshire who does 
not have a mandatory law but has a compliance rate that is 
higher than say another State, is it fair to punish that State 
by holding up highway money or forcing the money to be spent on 
safety issues rather than say a bridge or some other area where 
the money could be used in perhaps a better way?
    Mr. Slater. Senator, your point about New Hampshire's 
compliance rate being better than some States that have the 
mandatory law is correct, but clearly, we have been able to 
improve across the board, across the Nation as a result of the 
seatbelt law, enhancing the safety of the traveling public.
    I believe, as evidenced by the letter that you read a few 
minutes ago, that those in New Hampshire with whom we have the 
privilege and pleasure to work with would agree that we have 
tried to be fair in working with the State as we deal with the 
fact that it doesn't have a law and that there are certain 
Penalties that go along with that.
    We have worked with the State as they have demonstrated to 
us that they have effectively complied with the provisions of 
the law and we've been able to work through it.
    Senator Smith. Would it be your intention to continue along 
that vein?
    Mr. Slater. Yes, it would be. Clearly, as I say that, it is 
a two-way street and we have to find common ground as we work 
together, but we've had our ups and downs in the past, but 
we've been able to work through it, and I'm sure we'll be able 
to do that in the future.
    Senator Smith. Not to belabor it, you've made an honest 
answer and I appreciate it. I think in the past, we've had 
situations where we were told--the State was told in order to 
accept the dollars, you have to spend x number of dollars on 
safety programs, which they didn't need to spend because the 
safety programs are already being funded, yet that money could 
have been used to repair a bridge or some highway or road. We 
weren't able to do that and we are complying at a higher rate 
than another State who may not have this problem.
    You were reasonable in administering that and hopefully, we 
can continue along that line.
    A final question, you answered Senator Warner on the issue 
of who would be the lead in terms of a conflict between the EPA 
and the Transportation Department in the building of a road, 
and you gave an honest answer, that you felt you should be the 
lead.
    However, there are times, as you know, where things don't 
flow all that smoothly and not that the environment should not 
be paramount sometimes, it should be, but there are times when 
the EPA does hold up highway projects frankly, in my opinion, 
without necessarily having good reason to do it.
    Do you intend to be aggressive in that debate within the 
Administration if that should occur in the future?
    Mr. Slater. We've had a good working relationship with the 
EPA over the last 4 years. They've got a group of dedicated and 
talented employees there and clearly, the point we try to 
stress with them is that we have responsibilities as well and 
the only way to work through the very difficult situations is 
for everyone to come to the table in a spirit of good faith, 
working with our partners, and to resolve the issues. We've 
been able to do a lot of that even in your State, Senator.
    Let me close by saying that we have also established a sort 
of joint transportation working group where we don't just come 
together when there is a problem, but we also work together 
sensitizing each other as to the legitimate interests that we 
represent, and that has proven very successful as well.
    Senator Chafee. Senator Lautenberg, before you start, I 
just want to say, Mr. Slater, regrettably, I have a long-time 
commitment in my office that I just could not change, so I'll 
have to be leaving, but Senator Smith will be presiding.
    We'll go down the list and then anybody who wants other 
questions, Senator Smith will give that individual an 
opportunity to a second round.
    We will keep the record open. I would ask unanimous consent 
that the record stay open until 5 p.m. today for written 
questions. When you receive the written questions, Mr. Slater, 
I would ask that you get them back promptly to the committee.
    Mr. Slater. Yes, sir, we will. We commit to do that.
    Senator Chafee. Again, I apologize for having to leave. 
Senator Lautenberg is next, followed by Senator Moynihan and 
Senator Graham.
    Senator Lautenberg. Thank you, Mr. Chairman.
    Mr. Slater, in the interest of time, I'll try to ask short 
questions, so you can give short but specific answers and maybe 
we can get to a couple of things I'm concerned about.
    First among them is the shortage of qualified controllers 
in the New York-New Jersey metropolitan region. We're down, 
according to newspaper reports, about 25 percent, talking about 
almost 100 controllers. That air space is clogged. It's got all 
the airports in New York, it's got some in Long Island, it's 
got some in Connecticut, it's got some in New Jersey, and I 
don't want to suggest to the traveling public that there are 
unusual risks, but there are certainly unusual delays. It 
follows on that risks could easily be assumed to be somewhat 
greater. They do a wonderful job out there.
    Well, I've been out there with Secretary Pena and he 
assured me at the time that he'd be working to resolve the 
problems. Since then, we have seen some improvement, but more 
has to be done.
    Can you give the public in the area, can you give the 
citizens in the area some commitment that resolving the air 
traffic control staffing problem in the New York-New Jersey 
area will be a high priority?
    Mr. Slater. Senator, it will be a high priority. I would 
add that I have had a general briefing by the FAA giving me an 
update on their progress and you're going to continue to see 
improvement in that area.
    Senator Lautenberg. Can I expect to see a staffing plan in 
the near future? When might we?
    Mr. Slater. In the near future. We'll be in touch with you 
and we'll give you an update as to where we are in that regard.
    Senator Lautenberg. I'd appreciate it.
    Since 1991, we, the United States, has frozen the operation 
of LCVs, longer combination vehicles. With ISTEA 
reauthorization, Lord willing, scheduled this year, I hear 
renewed talk about the possibility of ending the freeze on 
LCVs, either entirely or in specific regions or communities 
throughout the Nation.
    Well, there's strong public opposition, as you know, to 
increasing those truck sizes. Last spring, majorities in both 
the House and the Senate signed letters to Secretary Pena 
opposing truck size increases. Can you see any reason to end 
the LCV freeze?
    Mr. Slater. No.
    Senator Lautenberg. I assume, that means we'll be able to 
get your help in maintaining it if that's required?
    Mr. Slater. We plan to continue to follow the clear 
direction given by Congress.
    Senator Lautenberg. Last, you know the aviation ticket tax 
was allowed to expire this last December. Therefore, there 
won't even be adequate balance to the Aviation Trust Fund to 
cover the appropriations for this year.
    I'm concerned by reports out of IRS this week that the 
Aviation Trust Fund may actually be between $1 billion and $2 
billion poorer than originally estimated. That could mean that 
the trust fund will go bankrupt within the next 8 weeks instead 
of this summer.
    Could you give us some clues as to what action you might 
take to help alleviate this situation?
    Mr. Slater. Yes. Senator Lautenberg, your question was the 
first question that I received during my confirmation hearing 
from Chairman McCain. I committed then to join him and I make 
the same commitment here to join you, again, if I'm so honored 
to be confirmed, in making the case to the proper individuals, 
those who can make a difference here, and to the American 
people, that we have to move on this issue and we have to do it 
quickly.
    Senator Moynihan. You mean the tax writing?
    Mr. Slater. Yes, sir.
    Senator Lautenberg. He was looking at you and he spoke to 
me.
    Mr. Slater. I understand too that based on the recent 
report in the paper, that our situation is more dire than we 
originally anticipated, which only underscores the importance 
of moving on this issue in a most expeditious fashion and I 
make a commitment, if I am so confirmed by the Senate, that I 
will be a partner in that process.
    I think it is essential to do so because there is no way we 
can move forward as a department and the FAA as an agency, in 
implementing the very significant and sweeping personnel 
reform, acquisition reform, initiatives that you have given 
them the authority to move on without these resources.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    Senator Baucus. If I might briefly add on to that, Mr. 
Secretary, I urge you to get this thing solved for the very 
reasons that Senator Lautenberg indicated. There's analogy 
here. It's called installment sales of deferred contracts that 
farmers have used in determining their taxable income.
    The IRS, for years, has said that in an installment sales 
contract, they do not recognize income in the current year when 
cash is paid in a subsequent year. The IRS, a few months ago, 
particularly in the State of Washington, changed its mind and 
began to tell taxpayers they could no longer do that.
    All Members of Congress, looked at this as well as the 
Secretary of Treasury, Bob Rubin. Everyone agrees that this new 
IRS position is nuts and they, for a long time said--a long 
time meaning a month or so--that they could not change it; it 
would take an act of Congress. The taxable year for these 
people, their returns have to be in by March 1. It's clear 
Congress cannot act by March 1 to clear it up. We prevailed 
strenuously on the Administration, and they, administratively 
reversed themselves, finding a way to clear up this mess.
    I urge you and the Administration to work as aggressively 
and figure out a way to clear up this mess, working with the 
Congress, so we don't have to go through the usual process of 
waiting until we get a tax bill. Who knows when that might come 
up. We can't wait that long. This thing has to be solved right 
away.
    Mr. Slater. You have the commitment from me to work with 
all parties to come to that end.
    Senator Baucus. Thank you.
    Mr. Slater. Safety is in the balance and what better way to 
demonstrate that it's truly your No. 1 priority.
    Senator Smith [assuming Chair]. Senator Moynihan.
    Senator Moynihan. Can I just for Senator Lautenberg, 
please, my colleague on the Finance Committee says it's 
caucused. This has to be a tax bill.
    Senator Baucus. Exactly.
    Senator Lautenberg. We might have to get an agreement to a 
tax bill.
    Senator Baucus. That's what I'm getting at.
    Senator Moynihan. Two questions. First, if I could ask, in 
the forthcoming ISTEA legislation which you will send us, can 
we assume that you will maintain the reimbursement program 
which every State gets something but 47 States contributed a 
portion to the original interstate system and we agreed that 
they would be reimbursed last in the ISTEA, a 15-year program. 
Can we assume that you will continue it?
    Mr. Slater. We are committed to following through on the 
commitment that was made in ISTEA, yes, sir.
    Senator Moynihan. Thank you.
    Now, a big question and very good news. In the original 
ISTEA, we proposed a commission to promote investment in 
America's infrastructure, Dan Flanagan was chairman; Kay Bailey 
was a member. We understand that you may be posing a Federal 
Infrastructure Credit Act. There's a lot of potential here to 
get resources into infrastructure which, for lack of financing 
arrangements, we have never done.
    Mr. Slater. We are looking very closely at that and I think 
you'll be pleased, Senator. Let me just say that we very much 
appreciate the charge given us in ISTEA to work on innovative 
financing techniques, much like the one that you've just 
referenced. I personally, for the record, would like to mention 
that my deputy administrator, Jane Garvey, along with Louise 
Stoll, who is the head of budget at DOT, along with Mort Downey 
and other chief officials within the department, have done an 
excellent job in this regard.
    They've actually, and this is really the point I wish to 
stress, they have actually engaged the thinking, the expertise 
of the entire DOT staff, people who were used to doing things a 
different way, very comfortable with that, but who have now 
become very, very excited about the potential for this sort of 
initiative.
    I say that to say that we have changed as we have been 
challenged to change and I'm very, very excited about the 
potential here.
    Senator Moynihan. Tom Downey understands this. He was 
involved with the financing of the New York City subway system, 
which worked.
    Mr. Slater. Exactly.
    Senator Moynihan. There's a lot of funds out there we can 
access if we can find a credit system which the Federal 
Government has been doing for a very long time beginning with 
the Federal housing.
    Thank you.
    Senator Smith. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Again, I want to express my admiration for Mr. Slater and 
the outstanding service that he's rendered in the first term 
and look forward to an even greater service in this new 
position in the second Clinton administration.
    I have three questions I'd like to ask that cover different 
areas. One has been alluded to and that is interface between 
surface transportation and environmental concerns. This 
committee, which has both sides of that equation in its very 
title, is obviously concerned with this.
    An issue that has come up several times in my State in 
recent years is the issue of a major transportation project 
that say started in 1985 and by the early 1990's, substantial 
funds had been expended on design and construction and land 
acquisition and at that point, request for a permit is made and 
the project is denied, often denied for a factor which was 
knowable in 1985. We have a current situation involving a major 
enhancement of the highway that connects the mainland to the 
Florida Keys.
    I'm concerned that we can't get a process that brings all 
of the stakeholders in these major public projects, of which 
transportation would be a substantial member, to the table at 
Chapter 1 of their conception, and if there is some fatal flaw 
in the undertaking, it can be permeated and move on to some 
other activity.
    If it's not fatal, then the obstacles can be identified so 
that they can be dealt with during the course of design and 
initial planning, with some expectation that it will make it a 
permittable project.
    The question is, do you have some ideas possibly that might 
be incorporated in our next surface transportation 
reauthorization to try to facilitate the relationship between 
environmental permitting and transportation planning, design, 
and implementation?
    Mr. Slater. Senator, you speak to an issue that is very, 
very important in both the transportation planning process and 
the actual implementation of the plan.
    We have had 4 years of quality experience working with EPA, 
working with the Department of Interior, working with our 
partners at the State and local level trying to figure out how 
you streamline the process, how you streamline the various 
permits required by our department, required by the Corps of 
Engineers, required by other Federal agencies, State and local 
agencies as well.
    Our reauthorization proposal will reflect our best thinking 
in that regard. We have argued that issues of environmental 
interest and concern should be brought into the process at the 
earliest possible stage, even at the planning level, so that 
those factors can be taken into account as you move forward 
with the program.
    Even though you spend a considerable amount of money in the 
planning process and a considerable amount of time, you don't 
spend anywhere near the kinds of resources you spend when you 
actually start to act on a plan.
    So it's our hope that we will make more of an investment 
early on and avoid some of the experiences that you mention 
here, sir.
    Senator Graham. I'm pleased to hear that and look forward 
to drawing on the experience that you've accumulated as we look 
at this next legislation.
    Given my time, I'm going to reduce my number of questions 
down to two. The second question is of great concern in my 
State about the potential for a strike at our major commercial 
aviation carrier, American Airlines.
    What is the central role of the Department of 
Transportation being an intermediary to try to avoid what will 
be a massive dislocation of our domestic public and a 
dislocation of one of the major international hubs, 
particularly serving the Caribbean and Latin America?
    Mr. Slater. Because aviation, as well as all transportation 
is really so critical to the health and well-being of our 
economy and our quality of life, there is a unique provision 
that allows for participation by the Department, by the 
Administration in these kinds of situations.
    We really prefer that the mediation and negotiation process 
work because that's where it's best handled, but in those very 
unique and difficult situations, there are provisions that 
allow participation on the part of the Administration. We 
generally do not insert ourselves proactively and it's always 
generally in response to a particular request for involvement.
    Senator Graham. I look forward to working with you. I share 
your hope that this can be resolved, as it should be, by the 
parties, but there is a party that's not at the negotiating 
table and that's the public. If need be, I would look forward 
to your willingness to accept a role in trying to resolve this 
in the interest of the public.
    Mr. Slater. Yes, sir.
    Senator Smith. Thank you, Senator Graham.
    That completes the first round and Mr. Slater, Senator 
Kempthorne has asked for a couple of followup questions and 
then we'll be finished.
    Senator Kempthorne.
    Senator Kempthorne. Mr. Slater, these will be painless and 
really I've structured them so that a yes or no will be just 
fine.
    Mr. Slater. All right.
    Senator Kempthorne. The Federal Lands Program--and I 
appreciated your conversation with Senator Baucus where you 
affirmed it's critical as to regions of our country that have 
large amounts of highways that are located on Federal-owned 
lands which are tax exempt. In Idaho, for example, we're at 65 
percent federally-owned.
    This program, properly operated, is used to maintain the 
national highway system, so do you support the Federal Lands 
Program?
    Mr. Slater. I do.
    Senator Kempthorne. And you'll work to strengthen it during 
reauthorization?
    Mr. Slater. I look forward to working with you in that 
regard, sir.
    Senator Kempthorne. An important recreational program 
within ISTEA is the National Recreational Trails Act, which you 
and I have talked about. This program is designed to provide 
recreational opportunities and facilities for hiking, skiing, 
snowmobiling, horseback riding, bicycling, and four-wheeling 
for individuals with disabilities, just to name a few.
    It's an immensely popular program for which funding has 
fallen woefully short of the intended amount. As you know, this 
program is designed to be funded by that portion of the Gas Tax 
Trust Fund that is attributed solely to offroad vehicle use.
    Although the National Recreation Trails Advisory 
Committee's annual report of 1994 published by the U.S. 
Department of Transportation estimated that the annual revenues 
from offroad vehicles to be in the range of $63 million to $167 
million, the Recreational Trails Act has never, never received 
the $30 million annual appropriation called for in ISTEA 
because of a legislative drafting error.
    As you're aware, I've personally pursued this issue for a 
number of years and through the cooperation of Federal Highways 
and the Department of Transportation, and your help, we have 
been able to secure $15 million in 1996 and 1997.
    Will you work with me to develop a legislative solution to 
this funding problem with the Recreational Trails Act and 
provide the $30 million appropriation as provided for in the 
original ISTEA Program?
    Mr. Slater. Senator, I will if I'm so honored to be 
confirmed as Secretary of Transportation.
    Senator Kempthorne. Good. Then I look forward to working 
with you because I'm confident that you will be confirmed. 
You're what we need as Secretary of Transportation.
    Mr. Slater. Thank you.
    Senator Kempthorne. I also place a high priority on 
research and development--Senator Baucus, again, brought this 
up--to prepare ourselves for the challenges of the next 
century.
    We have several outstanding research facilities across the 
country that are conducting just these types of research and 
development programs. Two of those, the most innovative 
facilities are in Idaho at the National Center for Advanced 
Transportation Technology at the University of Idaho and the 
Idaho National Engineering and Environmental Laboratory in 
Idaho Falls.
    Will you place a high personal and departmental priority on 
research and recommend appropriate funding levels for both 
urban and rural needs when you are Secretary of Transportation?
    Mr. Slater. Senator, you have that commitment.
    Senator Kempthorne. Thank you. Again, when we spoke in the 
office, you indicated that during the reauthorization process, 
you would make a concerted effort to solicit and consider input 
from local and State officials as you develop department 
priorities for the new ISTEA. Can you be more specific now on 
how you may accomplish that?
    Mr. Slater. Senator, I'm very pleased that the Department, 
under the leadership of Secretary Pena, actually engaged in, I 
believe, 12 to 13 outreach meetings that were regional in 
nature, where we did engage and interface with State and local 
officials.
    The Federal Highway Administration along with the Federal 
Transit Administration and NHTSA on many occasions held more 
than 100 listening sessions with officials across the country, 
advocates and the like, those interested in transportation.
    Then, over the course of 4 years, I have probably been the 
most traveled Federal Highway Administrator in the history of 
the agency, going to places across the length and breadth of 
this country to look, listen and learn and to bring back those 
insights and then respond. We're going to do more of that as we 
prepare for the reauthorization process.
    I will add that the entire FHWA has joined me in that 
outreach effort and we've engaged in the most extensive 
outreach effort in the 104-year history of the agency. It's a 
fact about which I am very pleased and proud.
    Senator Kempthorne. Great. Mr. Slater, again, I appreciate 
all that you're doing. I hope, too, that you'll have some 
regional meetings as we've discussed.
    I happen to drive a four-wheel drive vehicle and I'm from 
Idaho; I know what rugged terrain is, but there's sections of 
295 and 395 that are challenging. So one of these days after 
you're confirmed, maybe we'll go have lunch and I'll show you a 
few stretches of rugged terrain that we can improve upon.
    Mr. Slater. I'd like that. Thank you, sir.
    Senator Kempthorne. Thank you.
    Senator Smith. Thank you, Senator Kempthorne.
    Mr. Slater, thank you very much for being here this morning 
and your very candid responses. Thank you, Mrs. Slater for 
being here, and your daughter.
    The hearing is adjourned.
    [Whereupon, at 11:27 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Mr. Slater's prepared statement and responses to 
additional questions follow:]
   Prepared Statement of the Hon. Rodney E. Slater, Nominated by the 
            President to be the Secretary of Transportation
    Mr. Chairman, Senator Baucus, Members of the Committee: I thank you 
for inviting me here today to talk with you about the future of 
transportation in the Nation. This committee plays such a vital role in 
keeping our transportation network operating smoothly that it is an 
honor for me to have this opportunity to speak to you, not just as 
Federal Highway Administrator, as in the past, but as the President's 
nominee for Secretary of Transportation.
    I well recall that day, May 19, 1993, when I came before you for 
confirmation to head what is now a 104-year old agency, the Federal 
Highway Administration, that has not only performed well each task the 
Congress has assigned to it, but that has evolved with the changing 
times. How fortunate I am that President Clinton's trust and the trust 
of this committee and the Senate gave me the opportunity to be a part 
of such a tradition of excellence.
    I was humbled on December 20, 1996, by the trust the President has 
again placed in me by putting my name forward for a new service to the 
American people. Today, sitting before you again, I thank you for your 
trust in me four years ago, without which I would not be here. I know, 
too, of the many people and organizations within the transportation 
community who have placed their trust in me as Federal Highway 
Administrator and now as the nominee to become the Secretary of 
Transportation. I can tell you that I am determined to continue paying 
back the investment of trust placed in me by this committee and the 
Congress, by the transportation community, by the President, and let me 
just add, by my family.
    I would like to talk with you about what we have accomplished 
together these past four years, and I would like to discuss my vision 
for preparing the Nation's intermodal transportation system for the 
challenges of the 21st century. I will start with a summary that I will 
elaborate on later in this statement.
    I view transportation as vitally important to the life of this 
Republic. President Clinton, in his Second Inaugural Address, 
illustrated just how central transportation has been in the history of 
making this Nation. He said:

          We began the 19th century with a choice: to spread our nation 
        from coast to coast. We began the 20th century with a choice: 
        to harness the Industrial Revolution to our values of free 
        enterprise, conservation, and human decency.

    In each case, transportation played a key role, whether through 
pioneer settlers who populated this great continent, the linking of 
coast to coast by the transcontinental railroad, or the transportation 
revolutions of the 20th century that have supported not just the 
strongest economy in the world, not just the strongest military, and 
not just the strongest Nation, but the hope and dreams of every 
American for freedom and opportunity.
    Transportation will remain central in accomplishing what President 
Clinton suggested must be our goal as we approach the 21st century, 
namely ``to unleash the limitless potential of all our people, and yes, 
to form a more perfect union.''
    Our intermodal transportation network is far more than the sum of 
its parts because it affects every aspect of the lives of the American 
people in ways we see, as when we go to work, and ways we don't, as 
when we make a purchase at a store without wondering how the item got 
there. A transportation network that serves the greatest economy in the 
world also helps get a mother to the hospital for the birth of a 
fragile new life.
    To this committee, I can say that we have very important work ahead 
of us in a variety of areas, but perhaps nothing this committee does in 
1997 will have more bearing on the American people than reauthorization 
of the Intermodal Surface Transportation Efficiency Act of 1991. So let 
me begin there.
    First, I commend this committee for its role in shaping the post-
Interstate era through the passage of ISTEA. When President George Bush 
signed this bill into law on December 18, 1991--I know that some of the 
Members of this committee were there on that cold, blustery day near 
Dallas-Fort Worth International Airport--it was widely hailed as a 
landmark tuning point and as the most important surface transportation 
legislation since President Dwight D. Eisenhower launched the 
Interstate System by signing the Federal-Aid Highway Act of 1956. In 
the 6 years since passage of ISTEA, its promise has been fulfilled, and 
those who thought it was a landmark were proven correct.
    ISTEA was not about business as usual. It was about rocking the 
boat. So it took courage for what was then a Democratic Congress and a 
Republican President to shake up the system, to start afresh, to turn 
from proven paths.
    I was not in Washington to help create ISTEA, but one of the 
accomplishments I am proudest of in these past four years is leading an 
Agency with the skills, the understanding, and the reputation to work 
with the State transportation departments, with the metropolitan 
planning organizations, and with the many interests involved to help 
build new relationships and establish the new balance that ISTEA called 
for. As the poet Robert Frost has said:

          Two roads diverged in a wood, and I--
          I took the one less traveled by,
          And that has made all the difference

    By taking the path of ISTEA, the path that in 1991 was less 
traveled by, this committee and its counterpart in the House of 
Representatives, have indeed made all the difference.
    The core of ISTEA can be found in the bold goals it established, 
drafted by Senator Moynihan, beginning with this visionary statement:

          It is the policy of the United States to develop a National 
        Intermodal Transportation System that is economically efficient 
        and environmentally sound, provides the foundation for the 
        nation to compete in the global economy, and will move people 
        and goods in an energy efficient manner.

    The past six years have demonstrated that this is not a vision of 
some distant future, but a vision we can attain, in fact are attaining, 
through the transportation planning process revitalized by ISTEA and by 
the market forces of competition that are making the transportation 
industry more productive and efficient.
    But ISTEA is about much more than that. It is about choice, with 
State and local governments having unprecedented flexibility and 
responsibility in deciding on the mix of projects best suited to meet 
transportation needs. It is about protecting our environment not only 
through the choices we make, but the way we implement those choices so 
that our air, our water, our natural environment, and our communities 
are enhanced by the needed transportation service we provide. It is 
about all forms of surface transportation, with renewed emphasis on 
bicycling and walking, and about expanding the vision to include the 
national scenic byways and recreational trails that are so important to 
the soul of the American people. And ISTEA is also about harnessing 
technology to serve a new century, through intelligent transportation 
systems, high-speed rail, and magnetic levitation.
    In 1997, we see the fruits of our collective labors. We approach 
reauthorization with a diverse transportation community virtually 
united in supporting the core concepts embodied in ISTEA. There is room 
for improvement, but when I see the strong support coming from a wide 
variety of interests for improving, not discarding, ISTEA, I know we 
are on the right path.
    And I know, too, that we have a unique opportunity, as we approach 
a new millennium, to, again in the words of the President, ``unleash 
the limitless potential of all our people'' and to serve the eternal 
cause of forming a more perfect union.
    If confirmed by the Senate as Secretary of Transportation, I will 
be serving in a new role in 1997, but I want to assure you that I plan 
to take a very strong and active leading role in working with you, the 
President and this Administration to enact reauthorization of ISTEA, to 
ensure the new legislation builds on the foundation created by ISTEA, 
and to achieve passage promptly as Subcommittee Chairman Warner 
indicated in the goals he outlined last September. We all want to avoid 
the financial disruptions that occurred at critical points in the past 
while the State transportation departments awaited passage of vitally 
needed legislation, we must complete reauthorization by September 30, 
1997, and I am confident that if we work together we can do so.
    Although I was not in Washington while ISTEA was taking shape in 
the Halls of Congress, I was here for another important milestone, 
enactment of the National Highway System Designation Act of 1991. For 
me, this was one of the most important accomplishments of my tenure as 
Federal Highway Administrator. Perhaps like all good things, it did not 
come easy, and as you know, it included some provisions, particularly 
regarding safety, that I know Senator Chafee and other members of this 
committee wish it did not. I strongly agree.
    While the debate over the legislation was at time contentious, 
there was no debate over the National Highway System itself. There was 
a broad-based, bipartisan understanding within both Houses of Congress 
that the National Highway System is the key to creating the intermodal 
transportation system envision by ISTEA. The National Highway System 
will provide the links that bind all the transportation modes into a 
single, seamless network pulling together to support economic 
development.
    In the course of this statement, I will discuss my vision of a 
United States Department of Transportation that not only meets the 
transportation needs of today and the 21st century, but that helps 
every American achieve his or her personal goals and that supports the 
freedoms we so rightly cherish. Let me, first, highlight the key 
priorities that will guide me, if the Senate sees fit to confirm my 
nomination.
    First, I will continue to make safety and security the highest 
priority of the Department. Because I believe that nothing is more 
important, I will strive to raise our current high levels of safety to 
even greater heights, especially in the face of rapid growth in the use 
of our transportation network.
    Second, I will work with this committee and with Congress to 
continue strategic investment in our transportation infrastructure, 
which is vital to not only our economy, but also our quality of life. 
These strategic investments include ISTEA reauthorization, the 
reauthorization of several other transportation programs, and enactment 
of FAA financial reform to complete the work of the Administration and 
Congress to provide the FAA with the tools and resources it needs. I 
will also work with Congress and our transportation partners to 
aggressively implement the legislation enacted to give the Department 
the tools to reform the FAA acquisition and personnel procedures, to 
reform our nation's maritime programs, and to enhance the safety of our 
network of oil and gas pipelines.
    And third, I will continue to bring common sense government to the 
Department of Transportation in order to provide the people we serve 
with a Department that works better and costs less. I will build on 
what we have accomplished to encourage more innovative and flexible 
funding to leverage federal dollars for infrastructure investment, 
technology use to improve the performance of our transportation system, 
and transportation policies that are sensitive to environmental 
concerns.
                  what transportation means to america
    These past four years, I have had the privilege of serving under a 
President and a Secretary, Federico Pena, who understand the central 
importance of transportation and who accomplished much in a relatively 
short time. I share with the President and with Secretary Pena a basic 
vision about the role of government and about the role of the 
Department of Transportation that can be summed up any number of ways, 
but the President said it best early in his first term: Putting People 
First.
    As mentioned in my introduction, I have a very expansive vision of 
what transportation means to our society and to our people. I look to 
history for my guide in seeing how transportation has pulled us 
together as a Nation, how transportation has sustained our dreams, and 
how transportation has given us the freedom to enjoy the right, 
promised by the Declaration of Independence, to ``Life, Liberty, and 
the pursuit of Happiness.''
    In the 20th century, perhaps no President had a clearer vision, and 
more historic results from his vision, than President Dwight D. 
Eisenhower. In a 1955 message to Congress, he provided an eloquent 
explanation of why the Interstate System was so important. In doing so 
he echoed the sentiments of Presidents throughout history:

          Our unity as a nation is sustained by free communication of 
        thought and by easy transportation of people and goods. The 
        ceaseless flow of information throughout the Republic is 
        matched by individual and commercial movement over a vast 
        system of interconnected highways crisscrossing the country and 
        joining at our national borders with friendly neighbors to the 
        north and south.

    To those who think I make too much of transportation, who think 
that after all it is really just concrete, asphalt, and steel, I refer 
you to a stretch of road that runs from Selma to Montgomery, Alabama. 
It's part of U.S. 80, and it carries the same daily traffic--the cars, 
the trucks, the motorcycles, the RV's, the buses--as any other part of 
the route or any other stretch of road in America.
    But this stretch of highway is different, because it made a 
difference in the lives of every American. On March 25, 1965, Dr. 
Martin Luther King, Jr., led a band of marchers across the Edmund 
Pettus Bridge in Selma to Montgomery, to protest voting restrictions 
that disenfranchised most African Americans. Four days later in 
Montgomery, standing on the Capitol grounds, he told his assembled 
supporters that they had marched for ``the realization of the American 
dream.'' On August 6, 1965, President Lyndon Johnson signed the 
legislation that empowered African Americans and all Americans to cast 
their ballot for the American dream of which Dr. King spoke.
    Last September, the Selma-to-Montgomery section of U.S. 80 was 
designated an All-American Road under our National Scenic Byways 
Program, not because it is beautiful, for many would argue that it is 
not; not because it is scenic, for others would argue that it is not--
but because this road, these lanes, symbolize the most beautiful idea 
of all: the American Dream.
    So let me assure you that I think the Federal Government has a 
strong role to play in transportation by providing a balance among the 
diverse interests of the States, leadership in advancing technology for 
a new century, and guidance in ensuring that vital national interests 
are met.
    If confirmed, I look forward to working to achieve the new role the 
President has outlined: that of a government that empowers each 
American to fulfill his or her own personal destiny.
             accomplishments: department of transportation
    I would like to talk to you today about what we have accomplished 
in the past four years and what I hope to accomplish in the next four 
years.
    Let me say I look forward to Secretary Pena remaining in 
Washington, so that the American people will continue to have the 
benefit of his skills, his vision, and his wisdom. He forged a team at 
the Department of Transportation that is committed to creating the 
Intermodal transportation system this country will need in the 21st 
century to support economic growth, to enhance our competitiveness in 
international marketplaces, and to expand the mobility of the American 
people.
    Recently, in saying farewell to the Department's employees, he 
described some of the Department's accomplishments he is proudest of, 
and I will share just a few of them with you. He spoke of:
    <bullet> LHundreds of thousands of private sector jobs created by 
strategic infrastructure investment.
    <bullet> LNew aviation safety and security regulations that make 
the skies safer for our families.
    <bullet> LA reinvigorated, stronger transit program.
    <bullet> LA revitalized American shipbuilding industry.
    <bullet> LInnovative livable communities program.
    <bullet> LSuccess at drug interdiction.
    <bullet> LA pivotal role in dealing humanely and professionally 
with the massive Cuban and Haitian migration.
    <bullet> LThe work we've done to increase the safety of the cars 
that Americans drive and our efforts to help them drive safely.
    <bullet> LThe progress we have made in intelligent transportation 
systems, high speed rail, and new technologies such as the global 
positioning system.
    <bullet> LSuccess in increasing railroad safety, in helping make 
rail-highway crossing safety a focus of national attention, and 
building a stronger Amtrak as a vital element of our transportation 
network.
    <bullet> LEfforts to reach out to minorities and to women to ensure 
equal opportunity for our partners around the country.
    <bullet> LThe building of a new, more diverse leadership within the 
Department.
    <bullet> LThe way DOT answered the Vice President's call to 
reinvent the Department of Transportation and to streamline operations 
so it can better serve its customers.
    <bullet> LAnd the commitment, which I strongly share, to the 
environment--to cleaning up and preventing oil spills, protecting 
National Parks, partnering on clean-car technology, and designating 
National Scenic Byways.
    In short, Secretary Pena leaves behind a strong legacy of 
accomplishment on which to build America's transportation future. The 
existing links between the Departments of Energy and Transportation 
will become even stronger as we work together, based on the bonds of 
trust that have grown between us.
            accomplishments: federal highway administration
    I want to take a moment, too, to tell you how proud I am of what 
the Federal Highway Administration has accomplished this past four 
years. I know Secretary Pena would agree with me that in listing our 
achievements, we are really complimenting the people who are at the 
heart of what we do, namely our committed employees.
    The Federal Highway Administration is a relatively small 
organization (fewer every day through attrition--about 3,500 men and 
women) with a $20 billion-a-year mission. We accomplish that mission 
through cooperation with our traditional partners, the State 
transportation departments and metropolitan planning organizations, and 
with newer partners who are focused on the environment, bikeways, 
pedestrian walkways, and other related aspects that add to the beauty 
and livability of communities across the Nation.
    Today, few things touch us in so many ways as the Interstate 
System. Almost everything we own traveled on the Interstate System at 
some point before arriving at our home. Our daily routines--going to 
work, to school, to the store, to church--and the special moments in 
our families lives--the birth of a baby, a daughters wedding, family 
vacations--often take us onto this vision in concrete, asphalt, and 
steel.
    I now would like to take a moment to highlight some of the 
achievements I am proudest of over the past four years.
    I have already mentioned the challenge we faced in making the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA) work. 
ISTEA juggled relationships and shifted power among the levels of 
government. It included many new and complex requirements. It brought 
new and old partners together in sometimes uneasy alliances. It set 
ambitious goals that altered our transportation priorities.
    As a result, making ISTEA work required partnering, brokering, and 
a form of ``tender loving care'' to facilitate the coming together of 
interests. I am proud that the Federal Highway Administration has the 
personnel, the resources, and the flexibility to help State and local 
officials build new relationships for exercising their new 
responsibility. The sincere attempts by all parties to work within the 
ISTEA framework strengthened old partnerships, created new ones, and 
brought us all together in a way that has energized this country's 
whole transportation community.
    I also would highlight the most extensive outreach effort ever 
undertaken in the agency's 104-year history. During my tenure, I led 
this effort by visiting most of the States and Puerto Rico, as well as 
working directly with the District of Columbia, meeting with thousands 
of people who use, construct, maintain, and manage our transportation 
system. For me, the road tours were perhaps my most important means of 
outreach. I set out on the first one in April 1994, from Buffalo, New 
York, to Laredo, Texas, with a goal of looking, listening, and 
learning--then acting on what I saw.
    In recent weeks, there has been much talk about initiatives to help 
the District of Columbia. I am proud of the role the Federal Highway 
Administration has played, cooperating with Congress and the President, 
in helping the District improve its transportation network.
    I also am proud of several other accomplishments:
    <bullet> LWorking with Congress, we provided record levels of 
infrastructure investment to help carry out the President's commitment 
to ``Rebuild America.'' Investment increased 21 percent, from an annual 
average of $21.1 billion in fiscal years 1990-1993 to an average of 
$25.5 billion in fiscal years 1994-1997.
    <bullet> LWe cooperated with Congress and our State and local 
partners to identify routes for the National Highway System, which was 
designated on November 28, 1995, when the President signed the National 
Highway System Designation Act of 1995. We also have submitted a report 
to Congress, called Pulling Together, identifying intermodal 
connections, including rail, transit, seaport, and airport facilities, 
to be added to the National Highway System.
    <bullet> LWe created innovative financing techniques that leverage 
federal dollars and stimulate greater investment in infrastructure. As 
a result, more than $5 billion worth of projects have moved to 
construction faster than would otherwise have been possible.
    <bullet> LWe promoted innovative contracting techniques, such as 
design-build, that are helping to transform the contracting process to 
enhance quality--which is another way of saying service to our 
customers, the American motorist.
    <bullet> LWe worked with the States and the private sector to 
develop intelligent transportation systems that will help America meet 
the growing demands of its transportation network at a time when 
efficiency, rather than expansion, is the key criterion.
    <bullet> LWe recommitted the agency to the National Quality 
Initiative, an historic initiative of longstanding partners who want to 
promote excellence in all aspects of highway research, design, 
planning, and construction.
    <bullet> LWe launched a variety of life-saving initiatives, 
including ``Sharing the Road--No Zone,'' the Red Light Running 
Prevention Campaign, the Capital Beltway Safety Task Force, the 
Railroad-Highway Grade Crossing Safety Action Plan, the National Work 
Zone Safety Program, and the Safety Action Plan.
    <bullet> LWe designated the first six All-American Roads and the 
first 11 National Scenic Byways under the National Scenic Byways 
Program created by ISTEA.
    <bullet> LWe have worked with our partners to ensure that highway 
transportation projects and programs enhance the communities and the 
environment through which they pass. Our initiatives include a revised 
Environmental Policy Statement in 1994, cooperation with the 
Environmental Protection Agency to ensure that transportation continues 
to contribute to increasing quality of our air, and initiatives to 
create one-stop shopping for the environmental reviews that are so 
important to the development of any project. We also enhanced 
environmental sensitivity within the agency by conducting Environmental 
Leadership Seminars for our top field staff.
    <bullet> LInternationally, we have worked to facilitate trade with 
Canada and Mexico, for example by taking the lead in harmonizing land 
transportation standards, while helping other Nations, including South 
Africa, improve their transportation networks to support economic 
growth and freedom. Following my 1993 trip to Russia, we have supported 
democratization of the former Soviet Union by initiating ongoing 
technical assistance and technology transfer, including private sector 
involvement.
    <bullet> LWe launched a series of actions to improve motor carrier 
safety in cooperation with our motor carrier partners, including the 
first ever National Truck and Bus Safety Summit (1995), imposition of 
drug and alcohol testing of commercial drivers, and completion of the 
most thorough study ever of driver fatigue and drowsiness. We have seen 
considerable progress where it counts the most--a decline in fatal 
crashes involving large trucks, down from 2.7 per 100 million vehicle-
miles in 1993 to 2.5 in 1995.
    <bullet> LWe participated actively in the Vice President's National 
Performance Review, which helped us remove or modify numerous 
regulations, while we streamlined our operations to match them better 
not only to ISTEA's goals but to the needs of each State.
    I'd like to mention just two other items that go directly to the 
heart of what the Federal Highway Administration is all about. One of 
my first experiences after taking office in 1993 was the Great 
Midwestern Floods. It was an eye opener in two respects, the first 
being the sheer amount of devastation the flooding caused. But 
secondly, and more importantly, I learned how committed the people of 
the Federal Highway Administration are to public service, to getting 
involved, and to being part of the communities in which they live. Our 
field staff pitched in and did everything possible to help reopen the 
highway lifelines disrupted by the floods.
    I've seen this same spirit time and again, notably in the aftermath 
of the Northridge Earthquake that rocked the Los Angeles area in 1994 
and destroyed several key Interstate links. The people of the Los 
Angeles area, whose daily routines were scrambled by the earthquake, 
benefited from close cooperation among the Federal Highway 
Administration, the Federal Transit Administration, and the California 
Department of Transportation, through provisions made for temporary 
service that were needed until highway links were reopened, in record 
time, paid for 100 percent with federal funds.
    In these instances, and in so many others, I have heard from 
Governors and top State transportation officials that our response to 
disasters is not just timely and efficient but compassionate--
reflecting the highest ideals of government service and Federal-State 
partnership. I want to give credit to those who've earned it: the 
people who are the Federal Highway Administration.
    The final item is the response to the Oklahoma City bombing, in 
which we lost 11 members of the Federal Highway Administration family. 
It's a day none of us will ever forget. But when the survivors were 
told they could take time off to recover from the emotional shock, they 
agreed unanimously that what they wanted to do was get back to work as 
soon as possible. Our administrative staff worked miracles to find new 
office space and to equip it so our Division Office in Oklahoma was 
able to reopen within days after the tragedy. This commitment, not just 
to our mission, but to those who had fallen, was, again, a tribute to 
the people who are the Federal Highway Administration.
    In short, I have been proud to lead a federal agency that has 
shaped its vision to the times and accomplished each of its missions 
with distinction. This is an agency well prepared to meet--and master--
the uncertainties, challenges, and opportunities of the 21st century.
    We have accomplished much, but much remains to be done.
                   looking to the department's future
    In looking to the future, we in the Department of Transportation 
must set high goals, must call on all our resources and all our 
reserves to build exponentially on the foundation created thus far.
    In doing so, I can look to a former Secretary with whom I will 
share a unique distinction. If confirmed, I will be only the second 
Federal Highway Administrator to serve as Secretary of Transportation. 
The first was John A. Volpe, who served as the first Federal Highway 
Administrator from October 1956 to February 1957. In 1969, he was 
appointed by President Nixon to be the second Secretary of 
Transportation and served in that post until 1972. For his actions, for 
his leadership, and for his vision, Secretary Volpe is regarded by 
historians as one of the greatest Secretaries the Department of 
Transportation has had.
    One of Secretary Volpe's sayings bears repeating as we look to the 
future:

          I submit that as we live in times of change, we must be the 
        architects of that change or we will most certainly be its 
        victims.

    As the President has said, when times change, so government must 
change. And so, as I look to the next four years, I believe we in the 
Department of Transportation must set high goals and must be architects 
of change, but we must also build a new balance in our relations with 
State and local governments. To do that I will be taking my lead from 
the President:
    <bullet> LI will be calling on the Department's employees to share 
their vision of how we can intensify our efforts to accomplish more, 
much more, to benefit the American people.
    <bullet> LI will be calling on State and local officials to help us 
build a new balance.
    <bullet> LI will be calling on private organizations to help us.
    <bullet> LAnd I will be seeking to work with you, the Congress.
    Together, with the help of all these groups and individuals, we 
will intensify our efforts to the highest degree to build the safest, 
most efficient transportation network possible.
    Certainly, in focusing our efforts, a priority for all of us must 
be legislation that will provide the framework for our 21st century 
transportation system.
    I have already discussed reauthorization of ISTEA, which will be 
the major transportation initiative to be undertaken by this Congress. 
In reauthorization, we have the opportunity this year to advance the 
vision of ISTEA, to strengthen the partnerships that it created, and to 
put the traveling public first when making investment decisions. We 
must have a transportation system that is designed around the trips we 
need to make, not the traditional modes of transportation. We need to 
think not only of our modal systems, but how they link together.
    There are those who call for the Federal Government to abandon its 
role in surface transportation. As you can tell from what I have said 
thus far, I reject this idea. As ISTEA has demonstrated, the Federal 
Government can play, indeed must play, an important role in helping 
each State in a diverse union create the national network essential to 
maintain what Thomas Jefferson referred to as a ``union of sentiment.''
    Such calls are often based on disputes over formula distribution of 
funds, mandates that a State believes are inappropriate, and a view--
which I certainly reject--that the Federal Highway Administration is 
intrusive in State affairs and duplicative of State efforts. These 
concerns are, legitimately, up for debate. But at a time when Europe, 
our chief competitor in many markets, is pulling together, we should 
not be pulling apart, program by program, into a loose confederation of 
States that lacks the ability to deliver to the American people the 
benefits that we can only realize as a Nation.
    No State lives in isolation--its citizens never traveling outside 
its borders, its businesses never working with businesses or customers 
elsewhere. No State ever turns away a tourist from elsewhere. Thus, the 
challenges before us are national in scope; and the solutions require 
national involvement. Traffic congestion and bottlenecks in major trade 
centers, such as Chicago and Los Angeles, not only impose delays on 
local commuters and regional freight, they also interfere with speedy 
cargo movements--movements that are essential to maintain our global 
competitiveness.
    Safety is another example of the key role the Federal Government 
plays. Nothing is more important than safety, for any sudden loss of 
life or serious injury in a traffic incident is a tragedy that could 
have been avoided. The cost of such terrible events cannot be measured 
in dollars alone.
    During the 1990's, traffic fatalities are at the lowest levels in 
30 years--although the number has increased in the past year or two. I 
am talking about actual numbers, not fatality rates. In fact, if the 
fatality rate today were what it was in 1980, we would be losing 65,000 
men, women, and children each year, not 41,798, as in 1995. Hundreds of 
thousands of people are alive today because of safety advances. We 
attained these reduced levels despite a tripling or more of vehicle 
miles of travel over that same period.
    This safety record did not occur because of the efforts of each 
State operating on its own. The States played an important role, but it 
would be incorrect to assume they could have done it on their own. It 
happened because of agency automotive safety standards that the States 
could not have imposed; because of improved highway design standards 
developed by the States but adopted by the Federal Highway 
Administration for use on projects around the country; and because of 
the initiatives of private safety groups that kept pressure on the 
federal, State, and local governments to address highway safety issues 
and that educated the public about them.
    The Federal Government didn't do it all--and can't. We need the 
partnership of State and local officials, the cooperation of the auto 
and trucking industries, and the efforts of public spirited citizens to 
continue bringing down the toll of tragedy. But the Federal Government 
can continue to play a vital, catalytic role that we should not 
weaken--but build on.
    We must do more, we will do more to keep safety in the forefront. I 
trust that reauthorization of ISTEA will give us an opportunity to take 
new strides forward. But in safety, as in many other areas of surface 
transportation, complete withdrawal by the Federal Government would be 
a huge step backward.
    The Department will be submitting the President's reauthorization 
proposals to Congress next month. I will defer discussion of specific 
elements of reauthorization until that time. But our goal is to work 
with Congress to build on the success of ISTEA. I am pleased that over 
the years, surface transportation legislation, for all the 
controversies surrounding it, has been seen as bipartisan. I am 
pleased, too, that the authorizing committees reflect this bipartisan 
spirit. So let me assure you that I plan to reach out to Congress as it 
builds the surface transportation legislation that will take America 
into a new millennium.
    There is much more to the Department of Transportation than 
renewing the surface transportation assistance and safety programs 
represented by ISTEA. I look forward to working on the many challenges 
facing the aviation and maritime environments. I know we must develop a 
more stable funding stream for the Federal Aviation Administration to 
keep pace with aviation growth and to follow the path to longer-term 
financial reform that was laid out by this committee last year. We must 
complete a rigorous assessment of what it costs to manage and regulate 
the aviation system, and how to pay for this system in as fair a way as 
possible. Finding an adequate, dedicated, stable source of revenue to 
meet the growth of aviation is one of our greatest challenges. I look 
forward to working with you, Mr. Chairman, and the members of this 
committee in meeting the challenge.
    The United States also must continue to play a vital role in 
pursuing more open, competitive aviation markets worldwide, with all 
the benefits they can bring in terms of increased business, tourism, 
and economic development. I can assure you that I will use the leverage 
provided by access to the vast United States market to urge our 
aviation' partners to adopt more open markets--and to ensure expanded 
access to their markets for United States carriers.
    Federal support for transit, like all transportation, is not an end 
in itself. Ten million people count on transit every day to get to 
jobs, schools, stores, and health care facilities. Another 25 million 
use transit less frequently, but on a regular basis. Our urban 
transportation networks are dependent on a strong transit component, 
which benefits not only those who use it, but those who don't. But 
transit is not simply an urban priority. In rural areas, millions of 
Americans who cannot drive are dependent on transit services to help 
them meet their basic needs.
    The new demands of welfare reform require that workers be able to 
get to their jobs. This is one of transit's principal roles--providing 
basic mobility. It is also an opportunity, one we must make available 
to the 37 million Americans below the poverty line who often cannot 
afford an automobile.
    We have also initiated a new program to assist states and local 
agencies to define the impacts of mobility, to identify problem areas 
such as transportation service disconnects, and to develop strategies 
and solutions. Through the Research and Special Programs 
Administration, the Department is providing leadership in new 
technologies and options for meeting the transportation needs of the 
elderly, as well as transportation tailored to promote rural economic 
development and mobility in economic empowerment zones.
    Always, in all we do, safety must be our highest priority, and we 
have an unprecedented opportunity to increase safety belt and child 
safety seat use substantially. Nearly all major safety organizations 
agree on the need to upgrade and enforce safety belt use laws and to 
support these laws with intensified public education efforts. The 
tragic deaths of children resulting from air bag deployments have added 
increased urgency to these needs. It is now time to change behavior--to 
get all children and adults properly buckled up, whenever possible with 
children in the back seat.
    Last year, over 17,000 traffic fatalities, and many more injuries, 
involved alcohol. These crashes, injuries and fatalities are not 
accidents--they are predictable and preventable. We now have a unique 
opportunity to reduce this toll. A broad partnership has already been 
formed--called Partners in Progress--and it has agreed on national 
goals to reduce dramatically alcohol related traffic fatalities. I will 
work with the partnership to implement their strategies, and my 
personal mission will be to accelerate the pace of reduction.
    The Federal Government also has a responsibility to play an 
effective role in bringing parties together to resolve problems. For 
example, in the past, railroad labor and management often took opposite 
sides on many issues--almost reflexively--and rarely talked to each 
other. The advent of the Railroad Safety Advisory Committee, which has 
brought all sides together, has proved a successful forum--and a 
model--for reviewing pending rules and regulations and building 
consensus.
    Over the past decade, we have seen a revitalization of freight rail 
in this country as market forces have promoted increases in 
productivity and efficiency. As we look to the 21st century, however, 
perhaps the most encouraging trend is that thanks to the container/
piggyback revolution, we are seeing closer cooperation among 
traditional competitors--the truckers and the railroaders--than at 
anytime since World War I. In the 21st century, our intermodal 
transportation system will benefit by the efficiency that occurs when 
the mode that can do the job best, gets the job.
    As we move America to the next century, we must also recognize that 
America's interests do not end at our shorelines or our borders. Our 
interests--and our values--demand that we advance our economic, social, 
and environmental well-being well beyond our geographic boundaries.
    In aviation, government must ensure a free market environment 
abroad as well as at home. We have already achieved the removal of 
decades-long restrictions in many European markets and we are moving 
forward with an initiative to reach open skies agreements with Asian 
economies.
    The maritime programs have at their center the strengthening of our 
national and economic security. They accomplish this through genuine 
partnership with other government agencies and absolute reliance on the 
private sector to accomplish two goals: making our maritime 
transportation system the most modern, competitive, and efficient in 
the world and providing strategically critical sea-lift capacity to 
support our national security needs.
    In drug enforcement, alien interdiction, environmental protection, 
navigation safety and national security missions, the United States 
Coast Guard plays a key role in advancing our nation's interests. The 
Coast Guard is widely recognized as one of the most competent and 
responsive organizations in our government. The Coast Guard responds 
rapidly and effectively to natural disasters, war, and the need for 
marine environmental protection. Like any federal activity, it now 
faces tight budgetary constraints, and I am told it is doing extremely 
well in its streamlining efforts. We need to ensure it continues to get 
the resources it needs to get the job done.
    A new government for a new century will still need to remain 
anchored in the traditions and values that made our country great. 
These values are evident at the Department of Transportation. However, 
we must not let these same traditions inhibit our ability to adapt. We 
must commit to a better and more efficient government.
    For the St. Lawrence Seaway Development Corporation, the 
Administration is seeking legislative authority to reconstitute it as a 
performance-based organization (PBO) consistent with the Vice 
President's reinvention initiative. The Corporation reflects two of the 
most important characteristics of a PBO--a focus on customer service 
and performance based outcomes. As a PBO, the Corporation will be able 
to adopt additional private sector practices.
    We must commit to better and more efficient management of our 
assets--which are, in fact, the Nation's assets. Our government, and 
the Department of Transportation, will be proportionately smaller in 
the next century. And this smaller government will still have to give 
the American people the tools they need to solve the problems 
confronting our great Nation.
    I look to the 21st century, and I see State and local 
transportation agencies advancing toward state-of-the-art/state-of-the-
practice in all areas, including planning, design, finance, use of new 
materials, systems management, and construction practices.
    I see the Federal Government as a coordinator, working with State 
and local transportation agencies and with the public to enhance 
transportation.
    I see increasing privatization of transportation systems and more 
private investment in public transportation facilities.
    I see growing acceptance of the need to manage existing 
transportation systems in an efficient manner.
    I see the Modal Administrations within the Department of 
Transportation helping each mode of transportation do the work it does 
best--and ensuring that these modes link up into a whole that is 
greater than the sum of its parts.
    I see increased intermodal shipments pulling modes more closely 
together out of mutual interest, not government intervention.
    I see the National Highway System tying the Nation's transportation 
system into a seamless web of efficiency and safety that supports 
productivity increases and enhances competitiveness in international 
marketplaces.
    I see safety consciousness continuing to reduce the number of 
fatalities and injuries from transportation incidents.
    I see transportation in the 21st century serving the same role as 
the Civil Rights Movement of the 1950's--empowering minorities, women, 
and immigrants to achieve the freedom that is only possible with full 
mobility.
    I see roads without potholes, bridges that can bear the traffic 
crossing them, highways without congestion.
    And I see an America poised to make the 21st century another 
American century.
    Can we achieve this vision? In response I remind you of something 
Dr. Martin Luther King, Jr., said on that day in Montgomery when he 
addressed the 1965 Voting Rights Marchers. He said:

          The road ahead is not altogether a smooth one. There are no 
        broad highways to lead us easily and inevitably to quick 
        solutions.

    For the Department of Transportation, there are no broad highways 
to easy, quick solutions. But I hope that I can help us reach not just 
for the easy and the quick, but for the solutions that will make a 
difference in the long run, for the solutions that appear, but are not 
really, just beyond our reach.
    Down through history, we have seen how a President and a Congress 
can find common ground to build the transportation network this Nation 
needs. The Interstate System offers us a model. The vision of the 
Interstate System began to take place under the Democratic Presidents 
Franklin D. Roosevelt and Harry S. Truman, but it was only achieved in 
1956 when a Republican President, Dwight D. Eisenhower, and a 
Democratic Congress worked together to enact the needed legislation. In 
the Congress, the primary leaders were Senator Albert Gore, Sr., of 
Tennessee, the Vice President's father; Representative George H. 
Fallon, of Maryland; and Representative Hale Boggs of Louisiana. They, 
along with Republican leaders such as Senator Prescott Bush of 
Connecticut, the father of the President who signed ISTEA, found common 
ground for the benefit of the American people.
    President Clinton, in nominating me to succeed Secretary Pena, has 
given me a new opportunity, subject to Senate confirmation, to serve 
the American people and to help build the common ground on which we can 
build a bridge to the 21st century. I look forward to working with the 
transportation community to build a bridge to the 21st century that 
will be, as the President said on January 20, ``wide enough and strong 
enough for every American to cross over to a blessed land of new 
promise.''
                               __________
         Responses to Additional Questions From Senator Chafee
    Question 1. Indeed, ISTEA made a historic change in our nation's 
transportation policy. It expanded the surface transportation system by 
making it more responsive to mobility, efficiency, safety, and 
environmental concerns. If confirmed as Secretary of Transportation, 
how will you ensure that the nation builds upon this expansive vision 
in the next century?
    Response. To begin with, I will be guided by this important 
declaration from the original ISTEA:

          It is the policy of the United States to develop a National 
        Intermodal Transportation System that is economically efficient 
        and environmentally sound, provides the foundation for the 
        nation to compete in the global economy, and will move people 
        and goods in an energy efficient manner.

    We must all work together for passage of legislation that continues 
and extends that vision. We need to direct transportation investments 
to meet the nation's economic, social and environmental objectives. We 
need flexibility in deciding on the mix of projects best suited to meet 
our transportation needs. And we must focus on the safety implications 
of every decision.
    We must continue to look ahead, to anticipate the challenges and 
the opportunities presented by an ever changing global economy, to meet 
the needs of disadvantaged Americans, and to use the system more 
efficiently to meet a range of concerns. We will continue working 
closely with our traditional partners, the States, and the metropolitan 
areas, and we will build new partnerships, particularly with the users 
of our surface transportation services. We will continue expanding our 
vision to recognize the concerns of our major trading partners and, in 
particular, the opportunities of strengthening social and economic ties 
with our neighbors, Canada and Mexico.
    Let us commit to preserving and building on ISTEA. It is about 
protecting our environment not only through the transportation choices 
we make, but the way we implement those choices so that our air, water, 
natural environment, and communities are enhanced, not harmed. We need 
a renewed emphasis on bicycling and walking, along with highways, 
transit, and rail. We need scenic byways and recreational trails; they 
are important to the soul of the American people. And a reauthorized 
ISTEA must harness technology to serve a new century, through 
intelligent transportation systems, high-speed rail, and magnetic 
levitation, and other new technologies.

    Question 2. According to your testimony, President Clinton's 
leadership has resulted in ``record level transportation infrastructure 
investment.'' Unfortunately, as much as transportation benefits the 
economy through the movement of people and goods, it is not without its 
costs. Congestion, air pollution, injuries and fatalities are among the 
negative consequences of mobility. If confirmed, how will you work to 
offset some of the ``costs'' of moving people and goods?
    Response. The ``costs'' of moving people and goods are essentially 
related to safety and the environment. If confirmed, I pledge that 
safety will be my very highest priority. This Department will also make 
environmental considerations a critical part of our decision-making.
    I will do all in my power to ensure that DOT's safety programs are 
adequately funded. Increased authorizations are essential to address 
vehicle issues such as air bag safety, to address emerging problems 
such as aggressive drivers, and to support the crashworthiness and 
crash avoidance activities that will produce benefits into the 21st 
century.
    Since the enactment of the NHS Act, which included the repeal of 
speed limit and motorcycle helmet laws, DOT has taken strong action. In 
November 1995, Secretary Pena announced DOT's 10-Point Action Plan to 
Reduce Highway Injuries and Related Costs--a series of steps responding 
to the evolving Federal-State partnership. I would like to highlight 
several of the key initiatives under the Plan, which I am committed to 
carrying out:
    <bullet>  Advisory on speed limit: Immediately following NHS 
enactment, DOT sent letters to each Governor explaining the impact of 
speed-related crashes. Included was State-specific historical data on 
crashes.
    <bullet>  Proactive programs on speed, crash costs: Last year, DOT 
issued ``Economic Cost of Motor Vehicle Crashes,'' and began a study 
conducted by the National Academy of Sciences on guidance for State and 
local governments on setting speed limits. FHWA and NHTSA jointly 
developed a Speed Management Work Plan, initiatives both agencies will 
implement to provide technical support to States and local governments 
in their efforts to manage speeds on their roadways.
    <bullet>  Strengthened Safety Education for Policymakers: Last 
June, DOT, the Department of Health and Human Services, the Department 
of Education, and the Consumer Product Safety Commission jointly 
sponsored a ``Moving Kids Safely Conference'' in the Washington, D.C. 
area. In addition, last fall 10 Regional ``Moving Kids Safely 
Conferences'' were sponsored by DOT, which included policy maker 
discussions.
    <bullet>  Performance-based systems: In recognition of the need for 
States to assess problem areas and develop appropriate programs, DOT 
has and will continue to aid the States in using traffic crash and cost 
data as well as assisting in their implementation of Safety Management 
Systems.
    <bullet>  Support zero tolerance laws: Pursuant to the NHS Act, DOT 
issued a final zero tolerance rule. Since the President called on 
Congress to make zero tolerance the law of the land, 13 States have 
enacted such laws: Alabama, Alaska, Connecticut, Florida, Indiana, 
Kansas, Kentucky, Missouri, New York, North Carolina, Oklahoma, 
Pennsylvania, and Rhode Island.
    One of our biggest challenges is to provide adequate resources to 
improve safety. The status quo is not sufficient. We must strengthen 
all our safety efforts, especially our campaigns against drunk driving 
and for increased use of existing occupant protection systems.
    Working within the framework of the State and community highway 
safety program, there should be new incentives to prevent both drunk 
and drugged driving, increase the use of safety belts and child safety 
seats, and encourage the States to improve their highway safety data 
systems. This will give new momentum to the program at the same time 
that State and local attention is focused on high priority safety 
needs.
    I also would like to mention two recent Presidential initiatives: 
``Teen Driver License Drug Test Requirements'' and ``Increased Use of 
Safety Belts.''
    On October 19, 1996, President Clinton directed the Office of 
National Drug Control Policy (ONDCP) and DOT to recommend measures to 
meet two goals: (1) reduce the incidence of drug use by teens; and (2) 
reduce driving under the influence of drugs in general. A task force, 
led by DOT and ONDCP, which includes representatives from the 
Departments of Education, Health and Human Services, and Justice, 
studied the issues involved in meeting these goals. DOT is currently 
taking the lead in drafting a legislative proposal to implement these 
recommended measures.
    President Clinton, in his December 28, 1996, radio address, said 
that increased seat belt use nationwide would save thousands of 
American lives. The President directed DOT to ``work with the Congress, 
the States and other concerned Americans to report back to me with a 
plan to do just that''--increase seat belt use. This report will be 
delivered to the President as soon as possible.
    Following the Fox River Grove, Illinois, train-school bus crash, 
Secretary Pena organized a task force to address rail-highway crossing 
safety issues. Work on this effort is progressing to foster better 
communications among the States, local governments, and railroads to 
ensure that a tragedy like this one is not repeated.
    Let me now turn to the environment. I intend to implement 
initiatives to provide environmental leadership and create an even more 
environmentally conscious Department. Foremost among my specific goals 
for enhancing the environment is achieving a ``no net loss'' of 
wetlands and increasing the number of areas meeting their mobile source 
emissions requirements. I also intend to continue the Department's 
commitment to increase and highlight the use of pedestrian and 
bicycling modes and to meet their safety needs.
    I would also like to briefly mention another program: 
transportation enhancements. This well-received program originated in 
ISTEA. It not only improves transportation services but creates more 
livable communities.
    ISTEA created the Congestion Mitigation and Air Quality Improvement 
Program (CMAQ). This program set aside $6 billion to assist areas in 
dealing with congestion and transportation-related air pollution. CMAQ 
has been a success and I will strongly support continuing this 
important program. Additionally, I will continue to work with the EPA 
to assist States and metropolitan areas in integrating air quality 
considerations into their transportation planning activities.

    Question 3. In your testimony, you pledged to continue to make 
safety and security the highest priority of the Department.
    (A) If confirmed as Secretary, how will you ensure that traffic 
injury and fatality rates decline in the twenty-first century?
    (B) What do you envision the second ISTEA's role will be in 
ensuring safer travel in this country?
    Response. (A) The highway safety problems challenging us today are 
much more complex than in the past. The easy steps have been taken and 
their benefits realized. To increase safety, we will need to coordinate 
efforts with our growing number of partners at the state and community 
levels, in industry and in other parts of the Federal government.
    If, through our behavioral programs, we can increase safety belt 
use from the current 68 percent level to 85 percent, a level already 
achieved by some states, we would save an additional 4,200 lives and 
prevent thousands of serious injuries every year. To accomplish this, 
we must support and encourage efforts to upgrade and increase 
enforcement of safety belt and child safety seat laws and to publicize 
and encourage the public to participate in these safety efforts.
    A recently formed, broad partnership, Partners in Progress, is 
focused on a national goal of reducing alcohol-related traffic 
fatalities by 11,000 by the year 2005. This effort includes 
representatives from government, advocacy groups, law enforcement, 
business, judicial and alcohol beverage groups. They are developing 
comprehensive and collaborative strategies to make the goal a reality.
    (B) The programs under the new ISTEA will play a vital role in 
improving safety. The threat caused by alcohol and drug impaired 
drivers, more aggressive and faster driving, increased running of red 
lights, and a rising disregard of traffic signs all call for a 
comprehensive multi-modal, multi-disciplinary approach. A similar 
approach must be followed to increase the level of safety restraints, 
which are the best protection for occupants in a crash. The ISTEA 
reauthorization must highlight safety as a national priority and work 
toward cost beneficial solutions.
    Grants to states under the new ISTEA should advance national safety 
priorities and provide incentives for effective alcohol safety and 
occupant protection programs. Grants should also provide an incentive 
to states to increase their data resources so that they can more easily 
identify their specific safety problems, their program strengths and 
weaknesses, and improve their decision making and planning processes.
    We also need to revitalize our safety research and development 
efforts. Our research, development, and demonstration program should 
focus on air bag safety education and outreach; increased safety belt 
and child safety seat use; support of partnerships with governors, 
legislators, and the medical and safety communities; strategies to 
deter speeding and aggressive driving; injury prevention strategies 
with new partners in local communities; and a vision for the future of 
crash trauma care. If confirmed, I will take steps to ensure that 
needed research focuses on highway improvements to take advantage of 
new technologies, new materials, and to address our aging 
infrastructure.

    Question 4. What are your views on truck size and weight 
restrictions? Do you think that ISTEA should allow longer and heavier 
trucks on the road?
    Response. Any proposed changes to existing limits need to be 
carefully considered. On June 14, 1994, in testimony on the House side, 
I noted that the Federal Highway Administration had not conducted a 
comprehensive study of truck size and weight in more than thirty years. 
Accordingly, I directed that such a study be initiated. It is now an 
expanded, Department-wide study.
    In addition to the size and weight study, an important Highway Cost 
Allocation study is underway. They will both provide needed information 
to Congress on crucial issues.

    Question 5. As you know, I strongly supported a provision in the 
National Highway System Designation Act to add flexibility to road 
design and enable the states to consider environmental, scenic, 
historic and other community concerns in road design. I have heard from 
many parts of the nation, including Rhode Island, that road design 
issues--and how roads interact with communities--are critical to 
community well-being. However, we must always keep passenger safety in 
mind as well. What do you see as your role in encouraging the states to 
adopt flexible yet safe highway design standards that respond to the 
needs of people and communities?
    Response. The NHS provided additional flexibility in the design 
process that enables states to consider historic and environmental 
resources in the decisionmaking process. We view this legislation and 
our ongoing efforts, as an opportunity to fine-tune a design process 
that will continue to make a meaningful contribution to community 
sustainability and traffic service.
    We have already taken a leadership role in the development of a 
companion guide to the AASHTO Green Book, which will identify and 
highlight flexibility design options for states. We are working 
cooperatively with AASHTO and others to develop the companion guide and 
a complementary training course for our field staffs, state and local 
DOT staffs, and others, so as to improve the collective effort that is 
critical for effective decisionmaking. I will continue to encourage 
states to recognize the compatibility of safety and community design 
concerns in planning and implementing transportation projects.

    Question 6. The nation has changed a great deal since our 
Interstate highway system was built forty years ago. The focus has 
shifted from adding capacity to the highway system to ensuring that the 
national transportation system functions efficiently. What specific 
recommendations do you have to ensure that efficiency is the 
cornerstone of the nation's transportation system?
    Response. We are considering several proposals to improve the 
efficiency of our transportation system.
    <bullet> To expand on ISTEA's provisions which gave State and local 
decision makers flexibility in the use of major program funds. This 
will yield a more efficient program since investments can be made on 
the basis of transportation needs rather than being restricted to a 
particular modal project which may not be the best solution to an 
area's transportation problems.
    <bullet> Directing more funds to preserving systems of national 
importance, such as the National Highway System (NHS). This is 
important in attaining an efficient system because these routes are the 
most heavily used roads in the nation and because the NHS provides the 
connections among ports, freight railroads, airports, inland waterways, 
Amtrak stations, and transit facilities that are necessary for an 
interconnected national transportation system. Eligibility of the NHS 
funds could be broadened to encompass improvements to these connecting 
points.
    <bullet> Our reauthorization proposal will include steps to ensure 
that the ITS continues to improve transportation system performance 
nationwide by focusing on the integration of Intelligent Transportation 
Infrastructure components. We need to focus our research and technology 
programs on closing the gap between state of the art and state of the 
practice so that the most up-to-date technologies and procedures are 
incorporated into the transportation systems. We believe that 
technology application is one of the most cost-effective means of 
delivering an efficient transportation system.
    <bullet> We are focused on increasing private-sector involvement in 
meeting infrastructure financing needs. In this way, the cost-
efficiency of projects will receive greater emphasis and a greater 
variety of financing tools will become available.
    <bullet> Finally, we are working on measures to streamline our 
programs, reducing Federal oversight responsibilities while continuing 
to ensure quality work, focusing on performance, and simplifying 
Federal requirements. We believe these measures will contribute to a 
better operating, more efficient program.
                                 ______
                                 
      Responses to Additional Questions by Senator Dirk Kempthorne
    Question 1. Aviation Trust Fund. How would you, as Secretary of 
Transportation, bring the feuding airline groups to a consensus on an 
agreement they can support, which is adequate to fund the Airport 
Improvement Program and does not alienate AOPA and NBAA (National 
Business Aircraft Association)?
    Response. I believe that Congress has already taken the most 
important first step in reaching consensus with respect to airport and 
airway finance when it created the National Civil Aviation Review 
Commission and directed that it make recommendations on long-term FAA 
finance. This group, which will represent all segments of aviation, can 
develop consensus recommendations and submit them in a report to the 
Secretary of Transportation this September. If confirmed, I will 
propose a finance proposal based on an analysis of overall 
recommendations and submit it to Congress.

    Question 2. FAA is generally acknowledged to operate the premier 
Air Traffic Control System in the world, yet acquisition problems cause 
difficulties for the system, and their employees are viewed by 
outsiders to be ``government workers.'' ATC privatization and FAA 
reform have been heralded as the cure all for many of these problems. 
How would you solve this problem?
    Response. In 1995, Congress exempted FAA from a number of 
significant procurement and personnel laws. The FAA has developed. and 
recently implemented its new acquisition and personnel reform systems. 
I believe it is important to give the newly established systems 
sufficient time to work before making additional changes.
    The key goals of acquisition reform, embodied in the new 
Acquisition Management System, are to reduce the time to acquire 
systems and services, to field new technologies faster, to get the 
right products to the field at the right time, and to do this at lower 
cost to both government and industry. FAA's stated objective is ``20/50 
in 3'': 20 percent reduction in cost, 50 percent reduction in time, 
within 3 years (starting in FY 1996). If successful, the Acquisition 
Management System will serve as a model for implementation by other 
government agencies. Because of this potential, and because the system 
is radically different from the rest of government, the efforts are 
under scrutiny across government and the aviation community. The FAA 
will conduct internal evaluations in May 1997 and May 1998 and a 
formal, external evaluation will be provided to Congress in May 1999.
    The key goals of personnel reform are to permit the agency to place 
employees where they are needed most, and to permit the agency to 
compete with the private sector when hiring highly skilled people with 
unique technical backgrounds. Personnel reform was not intended to 
address a perception of FAA employees as ``government workers.'' 
Although the personnel rules have changed, FAA employees continue to be 
Federal Government employees.

    Question 3. It now appears likely that TWA 800 was an accident 
caused by some type of catastrophic mechanical failure and not 
terrorism. Airport security was significantly increased as a result of 
this accident while it was under investigation (although FAA will not 
confirm that this is the reason for the increased security). In the 
summer of 1995 we had a similar increase in security because of the 
World Trade Center bomber trial (again FAA will not officially confirm 
that this was the reason). Targets of terrorists, both foreign and 
domestic, against U.S. interests have been incidents like the World 
Trade Center bombing in New York City, the bombing of the Oklahoma City 
Federal Building, the Atlanta Olympic bomb incident and the recent bomb 
attacks on the women's clinic where family planning and abortions are 
available. Why is FAA unwilling to return security to previous levels 
once an investigation is complete, and why are most of FAA's mandatory 
rules changes issued as emergency amendments which permit little or no 
input from the people most affected by the rule or regulation change?
    Response. The level of security in place at U.S. airports is 
intended to provide all air transportation passengers and employees 
with the highest level of safety and security practicable. Oftentimes, 
there is never just one particular reason for increased security 
levels. Rather, there are often multiple and ongoing events, or ongoing 
situations, that combine to create a range of security threats. In 
order to adequately secure an air transportation system as large and 
complex as ours, a sufficient level of security must be available and 
in place at all times.
    Concerning public input, the FAA makes every effort to obtain 
public comment when possible. However, as you know, single events or 
on-going situations often warrant quick and comprehensive action. In 
those cases, the government will do what is necessary to maintain 
security. In the past, passengers have been eager to cooperate with the 
government to maintain the level of safety and security to which they 
are accustomed. If confirmed, I hope to work with Congress and all 
affected parties to achieve the appropriate level of security to meet 
the perceived threat at any particular time.

    Question 4. Regulatory Oversight. FAA has a large commitment to 
prepare regulations, advisory circulars, FAA orders, and standards for 
all aspects of civil aviation including airways, airlines, air traffic, 
security and airports. ICAO (International Civil Aviation Organization) 
also has the task of developing most of these same standards which 
apply world wide. Why don't we eliminate this duplication of effort in 
this area and utilize ICAO for uniform world wide standards? After all, 
Airports Council International coordinates and sits on committees with 
ICAO regarding airport issues. ATA (Air Transport Association) has 
membership on these same committees. Wouldn't this be an appropriate 
area to do more with less by consolidating work product? This would 
make more money available for other AIP programs, such as capital 
improvement projects at airports which would not be able to do these 
types of projects without federal assistance.
    Response. I understand that ICAO, through its Convention and 
Annexes, promulgates International Standards and Recommended Practices 
(SARPS). The SARPS are intended to ensure that, in the words of Article 
37 of the Chicago Convention, ``Each contracting State undertakes to 
collaborate in securing the highest practicable degree on uniformity in 
regulations, standards, procedures, and organization in relation to 
aircraft, personnel, airways and auxiliary services in all matters in 
which such uniformity will facilitate and improve air navigation.''
    In the Department's view, the SARPS are designed to promote 
international uniformity of States' regulations and practices and are 
not intended to take he place of each State's sovereign right and 
responsibility to regulate its civil aviation environment. The SARPS 
provide broad guidelines upon which each State is encouraged to develop 
and implement its own civil aviation regulations. The Convention and 18 
Annexes provide guidance through the SARPS but are neither complete nor 
specific enough to replace the individual regulatory requirements of 
ICAO's 186 Contracting States.
    While States are encouraged to adhere to the SARPS, provision is 
made for any State to file differences to those SARPS with which the 
State is unable to comply. The SARPS therefore are not binding, and 
ICAO has no practical means of enforcing compliance in any case. ICAO 
does not perform the functions of a regulatory body.
                                 ______
                                 
         Responses to Additional Questions From Senator Inhofe
    Question 1. I understand that there has been some confusion among 
the states about the implementation of my ``Quality Through 
Competition'' Amendment to the National Highway System Designation Act 
of 1995 (section 307, S.440, P.L. 104-59). For this reason, I sent a 
letter to your office dated September 18, 1996, inquiring about the 
implementation of the about the amendment, which has not received a 
response. At this time I would like to know
    (a) when I can expect a response to the 9/18/96 letter and
    (b) what that response will be.
    Response. I regret that we have not been able to provide a quicker 
response. Your letter included several requests for detailed 
information on States' statutes and implementation of the ``Quality 
Through Competition'' provisions of the NHS Designation Act. We have 
requested information from our Division Offices located in each State 
to help respond to your request. We expect to respond formally in late 
February or early March.
    Around the time of your inquiry, we were developing guidance on the 
duration of the ``opt-out'' period during which a State can pass 
legislation that would relieve it from the requirements of section 307 
of the NHS Designation Act. On October 10, 1996, we issued a guidance 
to our field offices stating that the Section 307 provisions would be 
effective November 28, 1996, unless replaced by an alternative State 
process adopted before that date. The only exception is for States that 
did not convene and adjourn a full, regular legislative session during 
the 1-year period ending November 28, 1996. The more general provisions 
relating to the applicability of 23 U.S.C. 112(b)(2) as a whole, which 
is set forth in 23 U.S.C. 112(b)(2)(B), would continue to apply.
    We continue to work closely with AASHTO, the States and the 
American Consulting Engineering Council (ACEC) to develop additional 
guidance to fully implement the ``Quality Through Competition'' 
provisions. We recently convened a national workshop with ACEC and 
State representatives to discuss the issues and develop implementation 
recommendation. We expect a Joint AASHTO/ACEC Committee will use the 
workshop results to help develop procedures for implementing the 
``Quality Through Competition'' provisions.

    Question 2. I understand that many pipeline-related accidents are 
caused by third-party damage to pipelines, telecommunications lines, 
and other types of underground systems. During the consideration of the 
Pipeline Safety bill last year, this issue was raised as evidence of 
the need to develop federal legislation for improving the effectiveness 
of one-call, or ``call-before-you-dig,'' programs throughout the United 
States. It is my understanding that the Department of Transportation is 
currently developing one-call legislation. As Transportation Secretary, 
what approach would you take towards improving the current One Call 
System?
    Response. The Department has recognized that educating the public 
about safety issues is essential if we are to reduce third party damage 
to underground structures such as pipelines. The Department is 
currently considering legislation that would provide leadership on this 
important safety and environmental issue. In addition, the Department 
is currently taking the lead in developing a public education campaign. 
a newly formed team of representative from the oil and gas industry, 
excavators, insurers, telecommunication, states, public nonprofit 
groups like One Call Systems International, and one-call centers of 
various states, has initiated work on a campaign to educate the public 
on prevention of damage to underground structures.
                                 ______
                                 
                   Responses to Additional Questions
    Question 1. EPA has proposed that national ambient air quality 
standards (NAAQS) for ozone and particulate matter be changed to 
tighter standards. This new standard will result in hundreds of 
counties and cities being placed in nonattainment or noncompliance 
status. Have you considered the implications of this proposal on our 
national transportation policy?
    Response. The Department is interested in the implications of the 
standards on transportation. We are reviewing the EPA proposals, and 
the expected inputs. Among transportation concerns are the potential 
impact on transportation planning, especially in the areas newly 
classified as nonattainment; the effects of EPA imposition of highway 
funding sanctions if areas are unable to meet planning requirements; 
and the likely need for further control on mobile source emissions, 
especially to reduce particulate emissions from transportation.
    ISTEA and the Clean Air Act Amendments (CAAA) of 1990 were both 
intended to improve air quality. As an example, Congestion Mitigation 
and Air Quality Improvement program apportionment--are tied to the 
existing CAAA classification scheme for non-attainment areas and depend 
on the severity of the pollution problem and the population affected. 
Any change to the non-attainment area classification, boundaries, or 
population affected could have an impact on the amount of CMAQ 
apportionments allocated to each non-attainment area.
    The Department is closely analyzing information as it becomes 
available. Since establishment of the new standards is separate from 
implementing them under the Clean Air Act, how they will be implemented 
has not yet been determined. DOT is working with EPA to consider and 
put in place the most effective implementation strategies based on what 
we know today regarding the effectiveness of transportation programs to 
improve air quality.
    DOT and EPA will need to enhance their already close working 
relationship as new non-attainment areas are slated for designation, 
based on the proposed standards in June 1999.
    The Department is participating on EPA's Federal Advisory Committee 
Act Subcommittee for Ozone, PM and Regional Haze Implementation 
Programs and several working groups under that Subcommittee. We are 
also working with EPA to explore some of the transportation-specific 
implementation issues, including possible development of a 
transportation working group.

    Question 2. Your remarks have focused on the importance of our 
transportation system on moving American products efficiently--
particularly as we implement NAFTA and GATT. I agree fully.
    I also would like to hear your thoughts, however, on the 
responsibility of our system to move people.
    The Department's own analysis confirms that the performance of our 
highways continues to decline and traffic congestion is increasing. The 
1995 Conditions and Performance Report says:

          More travelers, in more areas, during more hours are facing 
        high levels of congestion and delay than at any point in the 
        history of the country.
          The result is lost time and lost productivity for American 
        workers.
          How can we begin to make progress on this growing problem?
    Response. The highway system, and particularly the National Highway 
System, is the backbone of our Nation's surface transportation system, 
providing vital intercity and regional transportation to move products, 
but also providing for personal mobility within and around major 
metropolitan areas. Urban highway travel demand has grown by over 3.3 
percent per year, on average, since 1970. Part of this growth has been 
due to longer trips within urban areas, part by the increasing travel 
in lower density suburban areas, part due to ``trip chaining'' of 
working parents and others who must deal with medical, shopping, 
recreational, and other trips in addition to a daily work trip, and 
part by city residents who must commute longer to jobs now dispersed 
across a larger landscape.
    Many of our metropolitan planning organizations (MPO) are 
developing aggressive strategies to help curb the growth of urban 
highways and congestion. These strategies include the deployment of 
Intelligent Transportation Systems (ITS), providing timely information 
to travelers on alternate routes with less congestion, the use of 
higher levels of transit service, better coordination with land use 
planning and zoning decisions to reduce the reliance on single occupant 
vehicles, parking cash out programs, offering commuters a choice of 
parking support or vouchers for transit or other means of commuting, 
and other innovative strategies that work well in combination. The MPOs 
in our larger metropolitan areas are programming large investments in 
transit over the next several years, in anticipation of transit growth 
in highly congested areas.
    Progress will come through these, and other, public and private 
efforts to:
    (1) offer greater options to travelers;
    (2) provide better and more timely information to travelers; and
    (3) monitor changing conditions on our major NHS urban routes and 
help States and local decision makers design more effective strategies 
for dealing with congestion on these routes of greatest national and 
regional significance.
    Congestion can only be successfully addressed by a combination of 
demand reduction and supply enhancement, either through more efficient 
use of our existing system, or targeted efforts to add additional 
capacity. We are doing both.
                                 ______
                                 
        Responses to Additional Questions From Senator Sessions
    Question 1. Alabama is currently a ``donor'' state under 1991 ISTEA 
formulas. During today's hearing you emphasized a need for fairness in 
the allocation of ISTEA funds. What are your plans to help make ISTEA 
allocations fairer for donor states such as Alabama?
    Response. The donor-donee issue is a difficult one. There are no 
easy answers that will satisfy every State, especially if the issue is 
looked at solely in the terms of donors and donees. We can well 
understand the position of donor States, who pay more into the Highway 
Trust Fund than they receive. They might naturally argue that all, or 
at least a larger portions of their State's contribution to the Highway 
Trust Fund ought to be returned to the source State.
    We can also appreciate the position of the donee States, who, while 
they may receive more in Federal highway funds than they pay into the 
Highway Trust Fund, might provide projects necessary in meeting 
national transportation objectives, such as connectivity.
    Rather than approach this issue as simply ``donor-donee,'' and 
focus on who gets how much of the Federal-aid highway pie, it may be 
better first to focus on what policies and formulas will give our 
nation and its citizens the best possible transportation system. As 
part of its reauthorization effort, DOT is working to make surface 
transportation formulas as equitable and efficient as possible. This 
includes addressing the ``donor-donee'' questions as well as a wide 
range of other formula issues. But this will be a starting point for 
the debate. The Department will assist in every way it can to help 
arrive at an equitable solution.

    Question 2. During today's hearing, you mentioned the need to 
constantly appraise the efficiency level of Department of 
Transportation resources, particularly the use of human resources. What 
steps do you intend to take to ensure the Department of Transportation 
operates in the most efficient, cost-effective way possible? What plans 
do you have to continue the streamlining of the Department and what 
areas have the greatest need for improvement?
    Response. Bringing further efficiency to the operation of the 
Department and its delivery of services will be one of my highest 
priorities. Many successes have already been achieved in downsizing 
staff, following the lead of the National Performance Review. I cited 
the very significant progress made by the United States Coast Guard in 
its streamlining efforts, already leading to a reduction in civilian 
and military positions of over 3,500 positions. This process is not 
complete in the Coast Guard or elsewhere in the Department, and I 
promise to keep these streamlining efforts on track. The President's FY 
1998 Budget represents the next step in this process.

    Question 3. Understanding the need to promote and maintain commerce 
with an improved country-wide infrastructure, what are your plans for 
improving infrastructure in the Southeast region of the United States?
    Response. It is the goal of the Department to provide support 
towards the improvement of America's transportation system. The 
successful advancement of this mission entails improvements to 
transportation efficiency, access, safety, and resulting advancements 
in commerce and economic development. Just as the goals the Department 
seeks to support are national in scope, so too is the program 
administered. The categories of funding the Department distributes to 
the States, as well as the formulas by which it distributes those 
funds, are identical for each State. The Department does try to provide 
as much flexibility as it can to the States in program implementation. 
Also, there are limited sources of funds for distribution on a 
discretionary basis to States, such as Alabama, with special 
transportation needs. Strong economies and transportation networks are 
needed in every region of the U.S., and we will work to ensure that 
they are in place in the Southeast and every other region.

    Question 4. During today's hearing, you mentioned a goal for AMTRAK 
of complete self-sufficiency. What plans are currently in place and 
what plans do you have to help achieve this goal?
    Response. In 1995, the Department of Transportation and Amtrak's 
Board of Directors adopted as a goal the elimination of Amtrak's 
dependence on Federal operating subsidies, while improving service and 
preserving a National system. The Department's strategy is to 
restructure Amtrak into a bottom line-oriented corporation with a 
customer focus, provide adequate capital investment to modernize 
equipment and facilities, and provide sufficient operating assistance 
to carry Amtrak through the transition period.
    In line with that strategic goal, Amtrak has developed a detailed 
strategic plan. Amtrak and the Federal Railroad Administration are 
prepared to provide briefings. In addition, the Administration's 
legislative proposal for the reauthorization of Amtrak will contain 
several measures so that Amtrak can function more like a private 
business and, thus facilitate the accomplishment of this goal.

    Question 5. According to figures available for the 1992-95 period, 
Alabama contributes 2.128 percent of the total funds deposited into the 
highway trust fund, yet is allocated only 1.509 percent of those funds. 
I understand certain states have large areas of federal land which need 
to be traversed and smaller population bases from which to draw highway 
taxes, however, current levels appear unduly burdensome for the state 
of Alabama. What specific changes will you propose in ISTEA 
reauthorization language which will help to correct the current 
situation?
    Response. The issue of donor/donee is both contentious and 
difficult to resolve. As mentioned in our answer to your question 
number one, we are working to make surface transportation formulas as 
equitable and efficient as possible. As a part of that effort, we wish 
to eliminate factors which are either outdated or no longer bear a 
direct relationship to the affected program category, and consider 
instead more current factors related to need. Additionally, we wish to 
move States from the previous apportionment formulas to revised 
formulas in a fashion that does not abruptly alter annual apportionment 
levels.
    In some cases, these efforts may result in proposing a return of 
some assured level of Federal funds to the source States; in other 
cases, it may mean addressing donee State concerns through other means. 
The details are still being developed. The Department, however, will 
work throughout the reauthorization process to provide assistance in 
shaping a solution on the distribution of funds.

    Question 6. In your written testimony presented to the Committee, 
you spoke of a ``post-interstate era''. Recognizing the need to 
maintain and expand upon our current interstate highway system, do your 
comments reflect a shift in priorities regarding the allocation of 
ISTEA resources? If so, please elaborate on what the priorities might 
be and how these new priorities would be funded.
    Response. Although Interstate construction funding is no longer 
being made available to the States, the Interstate system is very much 
a part of the overall Federal-aid highway program. The term ``post-
Interstate era'' really refers to completion of the construction phase 
of the Interstate. The goal is to maintain condition and performance of 
the nation's highway system by focusing on the four major 
infrastructure programs in Title 23--National Highway System, 
Interstate Maintenance, Surface Transportation Program, and Bridge.
    The Department's priorities for reauthorization in this post-
Interstate era are to build on the central elements of ISTEA and to 
maintain strong federal leadership to ensure the mobility of people and 
goods that is essential to a healthy, internationally competitive 
economy. Highway capital investment needs to keep pace with demands 
from other parts of the economy that depend on efficient highway 
transportation. The federal role involves fostering partnerships and 
providing sufficient flexibility to allow decision makers to make the 
best investment choices. Increased flexibility will further empower 
State and local officials to target limited Federal funds to projects 
that best meet the unique needs of their communities.

    Question 7. I understand ISTEA collects funds based on a ``pay as 
you go system'' realized through a federal gas tax. In theory, this 
system places the cost of expanding and maintaining the interstate 
system on those who use the system. Currently, the funds collected by 
this system are being used for projects well outside scope of the 
interstate system such as urban rail and freight projects. Why should 
freight/rail projects be funded by resources collected through a gas 
tax and not through some other means which would better place the costs 
of these projects directly on to the beneficiaries?
    Response. Reauthorization of ISTEA must be considered in the larger 
context of surface transportation. Reauthorization should build on the 
central elements of ISTEA. A part of this is allowing the State's 
planning and needs identification process the flexibility to identify 
those transportation improvements that represent the best investment 
choice. Increased flexibility will further empower State and local 
officials to target limited federal funds to projects that best meet 
the unique needs of their communities; Improvements to other modes 
often represent the best use of transportation funds within a 
particular context. Any project decision, however, will be made at the 
state and local level.
    Proceeds from Federal motor fuel taxes can play a role in a truly 
intermodal context, supplying the best overall transportation solution, 
promoting efficiency, and answering the mobility needs of our nation.

    Question 8. Will you please provide the breakdown, in terms of 
dollars and percent of the total funds allocated by ISTEA for use in 
subway, passenger rail and freight projects?
    Response. Subway--Although ISTEA does not have a specific break-out 
of funding authorizations for subways, the transit New Starts and Fixed 
Guideway Modernization programs are frequently used for subway 
construction or maintenance of existing subways, and together account 
for $9.938 billion (6.3 percent of the $157 billion total ISTEA 
authorizations).
    In addition to these amounts, ISTEA authorized $16.096 billion in 
transit Formula Grants, $324 million for Interstate Transfer-Transit, 
and $29.255 billion for the Surface Transportation Program and the 
Congestion Mitigation and Air Quality program, all of which could 
conceivably be used for rail transit systems. These amount to 29.1 
percent of ISTEA authorizations.
    Passenger Rail--ISTEA authorized a total of $157 billion through 
fiscal years 1992-97. Of this total, $809 million (0.5 percent) was 
authorized for intercity passenger rail projects.
    Freight Rail--ISTEA does not authorize a program for freight rail 
projects.

    Question 9. Please list the top 5 non-interstate highway priorities 
currently funded in part or in full by ISTEA allocations including the 
dollar amount and percent relative to the total amount of funds 
collected through the gas tax.
    Response. The Federal Highway Administration's strategic goals are 
as follows:
    Mobility: Continually improve the public's access to activities, 
goods and services through preservation, improvement and expansion of 
the highway transportation system and enhancement of its operations, 
efficiency, and intermodal connections.
    Productivity: Continuously improve the economic efficiency of the 
nation's transportation system to enhance America's position in the 
global economy.
    Safety: Continually decrease the number and severity of highway 
accidents.
    Human and natural environment: Protect and enhance the natural 
environment and communities affected by highway transportation.
    National security: Improve the Nation's ability to respond to 
emergencies and natural disasters and enhance national defense 
mobility.
    All of our programs that distribute funding to the States address 
these goals. These programs include National Highway System, Interstate 
Maintenance, Surface Transportation, Highway Safety, Bridge Replacement 
and Rehabilitation, and Congestion Mitigation and Air Quality programs. 
Funds distributed to the States under the equity provisions of ISTEA--
Minimum Allocation, Donor State Bonus, Hold Harmless, and the 90-
Percent of Payments Adjustment--also support these goals.
    One category of funding, demonstration projects, is less efficient 
at ensuring that funding is directed at meeting National, or even 
State, goals. Demonstration project funding directs funds to specific 
projects without the opportunity for State Departments of 
Transportation to weigh the value of the demonstration projects 
relative to other needs.
    All of the programs described above are funded from the Highway 
Account of the Federal Highway Trust Fund. The Trust Fund receives 
revenues from motor-fuel taxes and other highway-user taxes.
         Responses to Additional Questions From Senator Baucus
    Question 1. FAA action to terminate MT weather observers: Mr. 
Slater, the Federal Aviation Administration has recently announced its 
intention to terminate the need for manned weather observers at several 
Montana airports--these weather observers will be replaced by what are 
called Automated Surface Observing Systems (ASOS). In other words, 
there will no longer be humans observing the weather conditions for 
incoming flights, but only an automated system. These terminations are 
being undertaken by the FAA to reduce costs.
    According to a GAO report in 1995, the automated systems were never 
intended to be used alone, without human backup. In fact, the GAO 
states that the automated systems cannot detect freezing rain or 
windshear conditions, thunderstorms, or tornadoes--conditions that 
require human verification.

    Question 1a. As GAO recommended, shouldn't human observers 
supplement these automated systems? Also, did the FAA give adequate 
notice and seek public input from Montana communities regarding 
implementation of ASOS?
    I understand the need to be conscious of costs. However, have we 
reached the point where budgets are driving our decisions? What about 
the safety of the flying public? Can you assure me that the automated 
systems have been adequately field tested and can quickly observe 
changing weather patterns?
    We know too well the consequences that weather can have on the 
safety of air travel. I feel strongly that we should take every step 
possible to ensure that such tragedies are avoided. I am not convinced 
that eliminating human weather observers is the right thing to do.
    I requested in a January 22 letter to the Department that the FAA 
Administrator should come to Montana to listen to the concerns of 
Montana pilots, airport managers and others. Will you see that such a 
visit is planned?
    Response. As I understand it, the GAO report recommended a 
collaboration with users to rectify the problems associated with ASOS. 
In November 1994, the FAA and the National Weather Service (NWS) met 
with executives from 14 national aviation associations concerning 
surface aviation observation services. These aviation associations 
represent aviation interests across the country. They reached an 
agreement that the Federal Government would work with industry to 
define service standards for surface observations. Over an 18-month 
period, government and industry met in 10 workshops, resulting in 
agreement on a four-level service standard for ASOS sites. Airports 
were rated as A, B, C, or D depending on the occurrence of significant 
weather, traffic counts, distance to the nearest suitable alternate 
airport, and critical airport characteristics.
    The service standards were published in the Federal Register on 
June 25, 1996, and public comments were invited. Additionally, the NWS 
published Weather Service Modernization Criteria in the Federal 
Register on May 2, 1996. Both notices contained listings of sites and 
their respective service levels.
    ASOS enhancements have been developed to detect freezing rain and 
thunderstorms. The freezing rain sensors are being deployed and should 
be complete by mid-1997. Thunderstorm detection sensors are in the 
process of being tested, with deployment expected soon after completion 
of the test. Windshear has never been observable by humans, and manual 
or automated surface observation tools are not used to detect 
windshear. Specific detection equipment and pilot training are the 
tools used to protect aircraft from windshear. Tornadoes are best 
detected by radar. Deployment of Next Generation Radar (NEXRAD), which 
is the best available tool for that task, is nearly complete.
    The FAA believes ASOS has proven to be reliable. A 6-month 
meteorological and engineering evaluation of ASOS's performance at 22 
locations across the country was sponsored by FAA, NWS and aviation 
industry representatives ASOS was available more than 99 percent of the 
time. The evaluation concluded that ASOS was ``representative'' of 
weather conditions more than 99 percent of the time. ASOS takes 
reliable, accurate observations that compare closely to those taken by 
human observers. The demonstration found that the ASOS is more 
responsive than humans in some cases. On average, the ASOS matched or 
slightly exceeded human response.
    I do think continuing to work with the affected parties can often 
lead to a good resolution of problems, and I would expect the FAA to 
control such an approach in this case. I believe that the appropriate 
level of FAA official should focus on the specifics of new 
installations in Montana and elsewhere, and agree that should be a 
priority of the new FAA management team.

    Question 2. Control Tower at Gallatin Field in Bozeman: Last year, 
the FAA announced the termination of the Flight Service Station at 
Gallatin Field in Bozeman, Montana. This, coupled with the proposed 
termination of weather observers at the airport as well, there is 
tremendous concern for airport safety in Bozeman.
    The Gallatin Airport Authority has stated it has the resources 
available to construct, equip and maintain a control tower at Gallatin.

    Question 2a. Gallatin Field is listed as one of the nation's 50 
fastest growing airports in the nation and it is eligible for the FAA's 
contract tower program. What assurances can you give me that Gallatin 
Field will be a priority for the FAA's contract tower program?
    Response. I am told that the FAA has received an October 1996 
request from the Gallatin Field Airport Authority for inclusion in the 
FAA Contract Tower (FCT) Program. FAA acknowledged the request on 
October 30, 1996, and an on-site traffic survey is planned for this 
spring to validate traffic levels at the airport. Once this is done, a 
benefit/cost analysis will be conducted to determine whether Gallatin 
Field qualifies as a potential candidate for inclusion in the FCT 
Program. If it does meet criteria, Gallatin Field will be placed on the 
candidate list along with other qualifying new start locations.
    FAA advises that it is requesting funds for new tower locations in 
FY 1998. If funding is obtained, qualifying locations will be ranked 
according to their benefit/cost ratio, and then funding allocated based 
on available dollars for new starts.
                                 ______
                                 
        Responses to Additional Questions From Senator Lieberman
    Question 1. Outreach: I understand that one of your priorities has 
been visiting with local officials, state Departments of 
Transportation, and citizen groups throughout the country. Can you tell 
us something about those trips and what you learned about our nation's 
transportation system?
    How has ISTEA's emphasis on empowering local communities changed 
the way the country approaches transportation decisions?
    Response. The Department undertook an outreach initiative to get 
input on ISTEA to develop an ISTEA reauthorization bill that will help 
our customers, partners, and stakeholders achieve their goals. We have 
met with Members of Congress, State and local officials, State DOTs, 
transportation practitioners at all levels, community activists, and 
our ultimate customers--the American people.
    The Office of the Secretary held 13 regional forums throughout the 
country, each focusing on a different subject, to hear about 
implementation of ISTEA. The modal agencies convened approximately 100 
focus groups in approximately 40 states. These were designed as smaller 
sessions, focusing on key areas of reauthorization, to determine 
specific solutions to transportation problems. In addition, in my 
capacity as Federal Highway Administrator, I participated in several 
road tours, during which I was able to talk with officials and citizens 
from all over the United States, from the Canadian border to the 
Mexican border. I was able to bring back first-hand information from 
around the country about our transportation system and its success in 
meeting people's needs and enhancing the quality of their lives.
    The over-riding and consistent message was that ISTEA works. We 
heard that Americans want to refine ISTEA, and build on its foundation. 
Americans see the need for a strong transportation system that 
contributes to economic development, job creation, environmental 
protection, and safety.
    The most significant changes have been the opening up of the 
decision-making process and the use of a broader array of decision 
criteria. Local officials and the public now have better access to the 
process before final decisions are made. There is greater involvement 
on the part of the ``newly empowered'' stakeholders, including the 
environmental community, the freight community, and the transportation 
disadvantaged. Increasingly, the focus is on quality of life concerns, 
the impacts of transportation investments on the community and 
environment in addition to traditional transportation system 
performance measures. Major transportation investments (either highway 
or transit) are increasingly being evaluated on an intermodal basis 
with appropriate consideration of tradeoffs among modes.

    Question 2. Innovative Financing: One of Federal Highway 
Administration's priorities under your leadership has been to develop 
innovative financing techniques that leverage federal dollars and 
stimulate greater investment I infrastructure. Can you tell us about 
Some of those efforts and how you plan to continue your work in this 
area?
    Response. The Federal Highway Administration is currently providing 
on-going technical assistance to the 71 projects begun under FHWA's 
innovative finance Test and Evaluation initiative (TE-045). FHWA is 
also working to mainstream the innovative financing techniques 
initially tested under TE-045 to accelerate an even larger number of 
projects as part of the regular federal-aid program. Congress adopted 
most of the Test and Evaluation innovative financing features in the 
National Highway System Designation Act of 1995 (NHS Act), and FHWA is 
providing technical assistance to implement those provisions. In 
addition, FHWA has been working closely with the Secretary to implement 
the State Infrastructure Bank (SIB) pilot program that built on the 
experience of TE-045 and was authorized by Congress in the NHS Act. 
FHWA is also assisting the Secretary to expand the pilot based on 
provisions in the Fiscal Year 1997 DOT Appropriations Act. FHWA is 
considering additional proposals to further leverage the federal dollar 
that may be a part of the Administration's proposal for reauthorization 
of Federal surface transportation programs.
    A total of 71 projects in 31 states with a total construction value 
of over $4.5 billion are moving forward under FHWA's Test and 
Evaluation Innovative Finance program. The initiative has generated 
about $1.2 billion in increased public and private investment, without 
any increase in Federal funding. For the actual projects that were 
funded, project sponsors used federal funds, State matching funds, and 
leveraged non-federal public and private funds. A recent evaluation of 
the initiative found that financing for these projects is as follows: 
Federal, $2.3 billion (53.4 percent); State and local, $0.47 billion 
(11 percent); private and toll authorities, $1.51 billion (35.6 
percent). Forty-three of the 71 projects have been accelerated by an 
average 2.2 years. As a result of these Test and Evaluation projects, 
ultimately 176,400 jobs will be created.
    In order to provide States assistance in implementing the 
innovative finance provisions in the NHS, FHWA launched a special two-
day training course. The course has been taught 47 times in 32 States 
over the past year. FHWA has also established Eastern and Western 
Regional Finance Centers, providing direct technical assistance to 
States and local governments.
    The NHS authorized up to 10 pilot State Infrastructure Banks 
(SIBs). As a result, the Secretary designated Arizona, California, 
Florida, Missouri, Ohio, Oklahoma, Oregon, South Carolina, Texas, and 
Virginia to participate in the SIB pilot program. DOT has been 
providing technical assistance to these States to implement their SIBs. 
Nine cooperative agreements have been signed with States to establish 
the banks (California is in the final stages of completing its 
cooperative agreement). Six States have deposited Federal and non-
federal matching funds to capitalize their SIBs. Ohio's SIB has made 
the first loan of the pilot program in the amount of $10 million to 
Butler County to support a likely $100 million bond issuance. The other 
States are currently working with project sponsors to determine which 
projects will be most effectively assisted by the SIBs.
    The FY 1997 DOT Appropriations Act enabled the Department to 
increase the number of pilot States from the 10 previously authorized 
and included an additional $150 million from the general fund to 
capitalize pilot SIBs. The Department is working to select additional 
States ready to implement a SIB from among the 26 applications it has 
received from 28 States, including 2 multi-State applications.

    Question 3. Air Quality: Under your leadership the Federal Highway 
Administration has truly worked as a partner with the Environmental 
Protection Agency in ensuring that transportation continues to 
contribute to improving the quality of our air. Can you talk about your 
view of the importance of integrating air quality and transportation 
goals--one of the fundamental premises of ISTEA?
    Response. ISTEA reflected a growing recognition that 
transportation, while vital to our nation's mobility and economy, must 
also be compatible with our commitment to clean air. Integrating air 
quality and transportation planning is, and will continue to be, an 
important goal of DOT. The need to continue to work on meeting this 
goal has been underscored by our customers, including our State and 
local partners, as well as our own staff in implementing the programs 
and provisions of ISTEA. By increasing program and funding flexibility, 
encouraging the consideration of environmental factors in 
transportation planning, and providing funds for air quality planning, 
ISTEA is helping areas to meet the requirements of the 1990 Clean Air 
Act Amendments (CAAA). ISTEA also created the Congestion Mitigation and 
Air Quality Improvement Program (CMAQ), which set aside $6 billion to 
assist areas in dealing with congestion and transportation-related air 
pollution. CMAQ has been successful in supporting a broad range of 
innovative projects which might not have otherwise been funded. I 
believe it is important to continue this program.
    The Federal Highway Administration and Federal Transit 
Administration have worked closely with the Environmental Protection 
Agency (EPA) on ISTEA's implementation, as well as on the 
implementation of the transportation provisions in the 1990 CAAA. DOT 
and EPA collaborated on guidance for implementing the CMAQ program. Our 
agencies have also worked extensively with stakeholders to provide 
technical assistance and to streamline the transportation conformity 
process under the CAAA. Transportation agencies ensure that 
transportation plans and programs help support efforts to reach and 
maintain air quality standards. Finally, EPA and DOT are exploring a 
public education campaign designed to help the public understand the 
air pollution consequences of their transportation choices.
    One of the Department's five main policy principles in ISTEA 
reauthorization is ``enhancing the environment.'' I am committed to 
ensuring that ISTEA's successor continues to protect the environment 
and integrate our nation's transportation and air quality goals.

    Question 4. Transportation enhancements: In Connecticut, the 
transportation enhancement program of ISTEA has been a remarkable 
success. What did you learn about this program from your interactions 
with local and state officials?
    Response. While I have not had the opportunity to spend a great 
deal of time visiting transportation enhancement projects in 
Connecticut, I have stayed in close contact with our Division 
Administrator. It is clear from our discussions with state and local 
officials that their concerns mirror those of many others across the 
nation who want to streamline the project delivery process and minimize 
the complexity of the process for project sponsors. We have heard their 
concerns, and are working with the State to streamline the 
environmental review process, and to complete negotiated agreements 
with organizations such as the State Historic Preservation Office in 
Connecticut.
    It is clear that local officials like the transportation 
enhancement program and support its contribution to community 
enhancement and revitalization. Projects such as the Farmington Canal 
Linear Park in Cheshire, Connecticut, have made enormous contributions 
to the renovation and preservation of historic treasures. It is just 
one example of a transportation enhancement project that has restored a 
recreational and open space corridor thus providing community and 
transportation benefits. This fine project was selected as one of 25 
best enhancement projects and was featured at the National 
Transportation Enhancement Conference FHWA sponsored in June 1996.

    Question 5. Technology Development: What type of investments do you 
think we need to make in developing the technologies that will provide 
really significant leaps forward in the next century in terms of 
improving the mobility of both passengers and goods?
    Response. We need to invest in technologies to improve the 
collection, processing and sharing of information for both the driver 
and his or her vehicle, and for the improved operation of our surface 
network. Similarly, other Intelligent Transportation Systems 
technologies and strategies will allow drivers of both commercial and 
passenger vehicles to make trips safer and more efficient through Smart 
Vehicle Technology.
    We also need to be making investments in the area of commercial 
vehicle operations. We are working cooperatively on motor carrier 
issues in the public and private sectors to research and develop 
applications of advanced technology. This will help to achieve safe and 
efficient movement of trucks and buses throughout North America, and to 
continue to streamline the regulatory process. We also need to use 
advanced communication technologies to enhance the intermodal transfer 
of passengers and goods--thus creating a seamless transportation 
system.
    Furthermore, we must examine the potential for high-speed rail, 
Maglev, and other innovative transportation technologies.
  

                                <all>
</pre></body></html>
